<html>
<title> - A LEGISLATIVE HEARING ON THE FOLLOWING BILLS: H.R. 748; H.R. 2551; H.R. 3286; H.R. 3419; H.R. 4138; A DRAFT BILL ENTITLED, ``TO MAKE CERTAIN IMPROVEMENTS IN THE LAWS ADMINISTERED BY THE SECRETARY OF VETERANS AFFAIRS RELATING TO EDUCATIONAL ASSISTANCE, AND FOR OTHER PURPOSES''; A DRAFT BILL ENTITLED, THE ``VETERANS SUCCESS ON CAMPUS ACT OF 2016''; A DRAFT BILL ENTITLED, THE ``GI BILL OVERSIGHT ACT OF 2016''; AND A DRAFT BILL ENTITLED, ``TO DIRECT THE SECRETARY OF LABOR TO CARRY OUT A RESEARCH PROGRAM TO EVALUATE THE EFFECTIVENESS OF TRANSITION ASSISTANCE PROGRAM IN ADDRESSING NEEDS OF CERTAIN MINORITY VETERANS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 LEGISLATIVE HEARING ON: H.R. 748; 2551; 3286; 3419; 4138; DRAFT BILL, 
    ``TO MAKE CERTAIN IMPROVEMENTS IN THE LAWS ADMINISTERED BY THE 
 SECRETARY OF VETERANS AFFAIRS RELATING TO EDUCATIONAL ASSISTANCE, AND 
FOR OTHER PURPOSES''; DRAFT BILL, THE ``VETERANS SUCCESS ON CAMPUS ACT 
  OF 2016''; DRAFT BILL, THE ``GI BILL OVERSIGHT ACT OF 2016''; DRAFT 
   BILL, ``TO DIRECT THE SECRETARY OF LABOR TO CARRY OUT A RESEARCH 
PROGRAM TO EVALUATE THE EFFECTIVENESS OF TRANSITION ASSISTANCE PROGRAM 
            IN ADDRESSING NEEDS OF CERTAIN MINORITY VETERANS

=======================================================================

                                 HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, APRIL 14, 2016

                               __________

                           Serial No. 114-64

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     
       


         Available via the World Wide Web: http://www.fdsys.gov
                     
                     
                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-153 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e0f7e8c7e4f2f4f3efe2ebf7a9e4e8eaa9">[email&#160;protected]</a>                      
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                        Thursday, April 14, 2016

                                                                   Page

A Legislative Hearing On The Following Bills: H.R. 748; H.R. 
  2551; H.R. 3286; H.R. 3419; H.R. 4138; A Draft Bill Entitled, 
  ``To Make Certain Improvements In The Laws Administered By The 
  Secretary Of Veterans Affairs Relating To Educational 
  Assistance, And For Other Purposes''; A Draft Bill Entitled, 
  The ``Veterans Success On Campus Act Of 2016''; A Draft Bill 
  Entitled, The ``GI Bill Oversight Act Of 2016''; And A Draft 
  Bill Entitled, ``To Direct The Secretary Of Labor To Carry Out 
  A Research Program To Evaluate The Effectiveness Of Transition 
  Assistance Program In Addressing Needs Of Certain Minority 
  Veterans.......................................................     1

                           OPENING STATEMENTS

Honorable Brad Wenstrup, Chairman................................     1
Honorable Mark Takano, Ranking Member............................     2
Honorable Jeff Miller, Full Committee Chairman...................     3
Honorable Dina Titus, Member.....................................     5

                               WITNESSES

Honorable David McKinley, (WV-01)................................     6
Honorable Paul Cook, (CA-08).....................................     7
Mr. Curtis L. Coy, Deputy Under Secretary for Economic 
  Opportunity, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs............................................     8
    Prepared Statement...........................................    28

        Accompanied by:

    Ms. Carin Otero, Associate Deputy Assistant Secretary for HR 
        Policy and Planning, Office of Human Resources and 
        Administration, U.S. Department of Veterans Affairs

Honorable Martha McSally, (AZ-02)................................    10
Mr. Sam Shellenberger, Deputy Assistant Secretary for Operations, 
  Veterans' Employment and Training Service, U.S. Department of 
  Labor..........................................................    12
    Prepared Statement...........................................    35
Mr. Davy Leghorn, Assistant Director, Veterans Employment and 
  Education Division, The American Legion........................    18
    Prepared Statement...........................................    38
Dr. Joseph W. Wescott, Legislative Director, National Association 
  of State Approving Agencies....................................    19
    Prepared Statement...........................................    41
Mr. Walter Ochinko, Policy Director, Veterans Education Success..    21
    Prepared Statement...........................................    43
Mr. Jared Lyon, President & CEO, Student Veterans of America.....    23
    Prepared Statement...........................................    50
Mr. Aleks Morosky, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    25
    Prepared Statement...........................................    55

                        STATEMENT FOR THE RECORD

Office of Inspector General, U.S. Department of Veterans Affairs.    58

 
A LEGISLATIVE HEARING ON THE FOLLOWING BILLS: H.R. 748; H.R. 2551; H.R. 
 3286; H.R. 3419; H.R. 4138; A DRAFT BILL ENTITLED, ``TO MAKE CERTAIN 
  IMPROVEMENTS IN THE LAWS ADMINISTERED BY THE SECRETARY OF VETERANS 
AFFAIRS RELATING TO EDUCATIONAL ASSISTANCE, AND FOR OTHER PURPOSES''; A 
DRAFT BILL ENTITLED, THE ``VETERANS SUCCESS ON CAMPUS ACT OF 2016''; A 
DRAFT BILL ENTITLED, THE ``GI BILL OVERSIGHT ACT OF 2016''; AND A DRAFT 
   BILL ENTITLED, ``TO DIRECT THE SECRETARY OF LABOR TO CARRY OUT A 
RESEARCH PROGRAM TO EVALUATE THE EFFECTIVENESS OF TRANSITION ASSISTANCE 
        PROGRAM IN ADDRESSING NEEDS OF CERTAIN MINORITY VETERANS

                              ----------                              


                        Thursday, April 14, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Zeldin, Costello, Radewagen, Bost, 
Miller, Takano, Titus, and Rice.

          OPENING STATEMENT OF BRAD WENSTRUP, CHAIRMAN

    Mr. Wenstrup. Good afternoon, everyone. The Subcommittee 
will come to order.
    Before we begin, I would like to ask unanimous consent that 
our colleague, Chairman Miller, be allowed to sit at the dais, 
to make an opening statement, and ask questions.
    Hearing no objection, so ordered.
    I want to thank--you don't or you do object?
    Mr. Takano. I don't object.
    Mr. Wenstrup. Okay. Good. Good.
    I want to thank you all for joining us here today to 
discuss legislation pending before the Subcommittee concerning 
education benefits, employment recognition programs for our 
returning servicemembers and veterans, as well as 
accountability at the Department of Veterans Affairs.
    This afternoon, we have nine important pieces of 
legislation before us, and I want to thank our colleagues for 
bringing these bills forward. While, well intentioned, some of 
the bills before us have, of course, what we would normally 
see, discretionary and mandatory costs engaged with them. So, 
before they move, I do look forward to working with the Ranking 
Member to identify needed offsets to pay for some of these 
bills.
    I also want to remind everyone that this hearing is only a 
legislative hearing and we are here to have an open dialogue so 
we can make necessary changes or omissions before we consider 
marking up any of these bills.
    In the interest of time, I am not going to summarize the 
legislation before us, but before I yield to Ranking Member 
Takano, I do want to make some comments on the draft bill 
entitled, the GI Bill Oversight Act. While I share everyone's 
concerns about the need to aggressively pursue, and if 
necessary, withdraw GI Bill approval for schools that use 
deceptive or fraudulent marketing practices, I am concerned 
with the unintended consequences of this bill as it is 
currently drafted, and we can talk about that.
    I believe that VA and the State-approval agencies already 
have the legislative authority to examine these schools, but to 
require the Department and the IG to take such a strong step 
forward based on a class action lawsuit or an investigation, by 
a state or Federal entity, without any due process that allows 
the school to present their side of the story, may be unwise.
    I would also be concerned about what constitutes an 
investigation and possible liability the VA or the IG may face, 
based on taking drastic action on unsubstantiated allegations.
    I appreciate, as always, Mr. Takano and his staff, having 
indicated a willingness to see if we can come to resolution on 
these concerns with the legislation as we move forward.
    With that being said, I am eager to discuss each of the 
nine pieces of legislation before us today, and I am grateful 
to my colleagues who have introduced these bills and to our 
witnesses for being here to discuss them with us.
    I look forward to a productive and meaningful discussion. I 
will now yield to my colleague, Ranking Member Takano, for any 
opening statement that he may have.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman for calling this 
hearing on nine bills to improve employment and educational 
opportunities for veterans. I want to offer my sincere 
gratitude to you for including two of my draft bills which 
involve issues of particular interest to me.
    You and your staff have really gone out of your way to 
include my bills, and I want to publicly say how much I 
appreciate what you have done. My first bill, the GI Bill 
Oversight Act, triggers VA and IG action to identify and weed 
out the bad actors in higher education, who use highly 
deceptive practices to recruit GI beneficiaries into their 
programs.
    My second bill improves the Transition Assistance Program 
for women veterans, veterans with disabilities, Native American 
veterans, insulative veterans, and others. I have offered both 
bills in draft form because I want to start a discussion around 
these issues, with the goal of eventually crafting meaningful 
legislation that will enhance veterans' experience using the GI 
Bill and TAP.
    I also want to extend my gratitude to Representative 
Radewagen for becoming the original cosponsor of my bill, to 
study TAP improvements for certain groups of veterans. I hope 
that both bills--that both bills will eventually enjoy 
bipartisan support.
    We have several important bills on the docket, and I wanted 
to keep my remarks brief so we can listen to the witnesses' 
testimony. I do want to commend Representative Titus for her 
excellent work on the support for Student Veterans with 
Families Act. Veterans with families should not have to choose 
between using their GI Bill benefits to pursue a degree and 
finding safe and affordable child care to care for their 
children.
    Wonderful. I applaud this bill for removing a significant 
barrier to education for student veterans.
    Finally, I want to thank Chairman Wenstrup for following 
through on the discussions we have had about the need to codify 
the VetSuccess on Campus Program. Student veterans have 
benefited greatly from the VSOC program, and I am pleased with 
the efforts of this Subcommittee to make this program 
permanent.
    I thank the witnesses for being here this afternoon and 
look forward to having the benefit of their views and the 
opportunity to ask questions.
    Thank you, and I yield back, Mr. Chairman.
    Mr. Wenstrup. Thank you, Mr. Takano.
    I will now yield to Chairman Miller, Chairman of the Full 
Committee, to discuss his bill, H.R. 4138.
    Chairman Miller, you are now recognized.

   OPENING STATEMENT OF JEFF MILLER, FULL COMMITTEE CHAIRMAN

    Mr. Miller. Thank you very much, Mr. Chairman. I appreciate 
you and Mr. Takano for not only holding this hearing, but 
allowing me to testify today, and thank you, Mr. Takano for not 
objecting to my sitting at the dais with you.
    H.R. 4138 would provide the secretary of veterans affairs 
with, yet, what I think is another tool that he or she could 
use to hold the department's employees accountable when it is 
warranted, while also being fair to the taxpayers of this 
Nation.
    This bill would allow the secretary to recoup any 
relocation expense paid to a VA employee when the secretary 
deems it necessary.
    The bill would also provide notice to the employee, prior 
to the recoupment and the opportunity for that employee to 
appeal the recoupment to a third-party Federal entity.
    This bill closely mirrors another bill which I introduced, 
H.R. 280, which gave the secretary the authority to recoup any 
bonuses when deemed necessary, and which passed out of the 
House by a voice vote in March of 2015.
    I realize many people, once again, believe that this is 
another partisan attack on the Department of Veterans Affairs, 
and that it could hurt retention and recoupment, and I think 
that is one of the reasons that the VA is opposed to this one 
piece of legislation.
    It is unfortunate, however, that while they continue to 
tout how they are supportive of true cultural change and 
accountability within the department, when Congress acts to 
give them those tools and the ability to change the culture, 
they rebuff it or they say they already have the authority, and 
it is not necessary, yet we see time and time again that these 
tools that they have are really replaced with words, and there 
are really no concrete efforts or actions on their part.
    The reason I introduced this bill was, in fact, to help the 
secretary and to give him the statutory authority to recoup 
these relocation expenses, when warranted. Because as many of 
you remember, with Diana Rubens and Kim Graves, it was evident 
that the department was unclear as to what authority they had 
to recoup the money.
    This bill would clear up any uncertainty the department or 
the lawyers may have as to what they are or are not able to do. 
I am not here to re-hash the ultimate outcome of the Rubens and 
the Graves cases. I do know, however, that many of us were 
disappointed in the department's inability or, in fact, their 
unwillingness to recoup the hundreds of thousands of dollars 
that the American taxpayers funded to make Ms. Rubens' and Ms. 
Graves' self-designed moves occur.
    Despite comments expressed by me, Members of Congress, 
VSOs, the media, and the general public, in these two cases, 
the secretary was always unclear as to whether or not they even 
had an option for the department to recoup those expenses under 
current law. VA has said as in the past and, again, in their 
testimony today, that they already had that ability to, 
``Collect debts owed by employees when employees have been paid 
incorrectly.''
    VA has not, however, been able to articulate whether Ms. 
Graves' or Ms. Rubens' transfers and the over $400,000 that 
their moves caused the American taxpayers would be categorized 
as improper payments. To erase this ambiguity, I introduced 
this bill that is before you today, H.R. 4138 to give the 
secretary again, yet another tool to instill real and measured 
accountability that would spread across the entire department.
    And furthermore, if the bill were law during the cases 
mentioned above, then it would have allowed the secretary to do 
what was right for veterans and taxpayers alike, so that when a 
VA employee inappropriately receives almost half a million 
dollars as a result of their behavior, behavior that some felt 
fell short of the department's values and their missions, the 
secretary would be able to act in a meaningful way.
    I think this is a common sense piece of legislation, and 
that it is our duty to provide the secretary with every means 
possible as we continue to work together to try and transform 
the Department of Veterans Affairs into an organization that 
the veterans of this country deserve.
    Mr. Chairman, Mr. Takano, thank you very much for your 
time; it is an honor, and I yield back.
    Mr. Wenstrup. Thank you, Chairman Miller.
    Next, we recognize Ms. Titus for any remarks she may have 
on her bill.

                OPENING STATEMENT OF DINA TITUS

    Ms. Titus. Well, thank you very much Mr. Chairman. I want 
to thank you and Ranking Member Takano, for including two 
pieces of legislation that I have introduced, and I thank Mr. 
Takano for his kind words when he mentioned one of them 
earlier.
    The first is H.R. 748, which is the GI Bill STEM Extension 
Act, which I introduced along with my friend, Mr. McKinley, 
from West Virginia, in that that would provide an additional 
nine months of educational benefits to help veterans who pursue 
degrees in the STEM fields. STEM fields often have many lab 
courses associated with them, and this can take longer than the 
standard four-year curriculum, and so that is why they need an 
additional amount of time.
    The ability to analyze, communicate, and motivate, which is 
honed in the military makes veterans ideal candidates for STEM 
fields. Now, with the growth and demand for STEM experts 
expected to outpace other professions in the next two decades, 
this legislation will help meet the need for a highly qualified 
workforce, enable us to better compete in the global economy, 
and create new employment opportunities for our Nation's 
heroes.
    I appreciate the support that I have gotten from some of 
today's witnesses, and I would like to work with Mr. McKinley 
to incorporate these changes that have been suggested.
    The second bill is H.R. 3419 that Mr. Takano mentioned, the 
Student Veterans with Families Act, and it would provide 
critical support service for student veterans with children. We 
know that student veterans can be different from the 
traditional college student; many of them are far likelier to 
have families of their own, and this means they have to juggle 
a possible academic career with currently meeting that family's 
needs.
    There are currently about 70,000 veterans who are single 
parents. Many of them are eligible to use the GI Bill benefits, 
and some of these are currently enrolled in educational 
programs.
    The GI Bill provides stipends for books, housing, living 
expenses, but not for any kind of child care. So students with 
any children aren't provided any additional support to help 
balance their studies and their responsibilities. And if 
student veterans aren't able to complete their degrees and take 
advantage of the GI Bill, then that is a shortcoming, and we 
are failing our Nation's heroes.
    This legislation would provide grants to schools to fund 
spots on existing child care facilities, build new facilities, 
or facilitate care closer to campus.
    Again, I appreciate the comments and suggestions that you 
have all submitted in your written statements, and I look 
forward to incorporating them in the legislation as it moves 
forward, especially the suggestion to add priority of service 
caveats.
    So those are the two bills that are included that I 
introduced, and I very much thank you, Mr. Chairman.
    Mr. Wenstrup. Thank you, Ms. Titus.
    It is an honor to be joined by our colleagues, Mr. McKinley 
of West Virginia and Mr. Cook of California. I thank all three 
of you--both of you for being here--there should be a third 
one.
    Mr. McKinley, you are now recognized.

              OPENING STATEMENT OF DAVID MCKINLEY

    Mr. McKinley. Thank you, Chairman Wenstrup and thank you, 
also, Ranking Member Takano.
    Members of the Committee and my cosponsor, thank you. Thank 
you for inviting me here today to discuss H.R. 748, the GI Bill 
STEM Extension Act. The rationale for this legislation is 
simple; it is twofold. We know there is a shortage of STEM 
graduates in our country, and we have also heard from our 
veterans how difficult it is for them to make that transition 
back from a military environment into an academic setting, 
especially for them to do it within the prescribed period of 
time.
    For example, engineering, I am just one of two licensed 
engineers in Congress and it takes now, at Purdue, it is a 
five-year program. And similar to that, in many programs across 
America, engineering and STEM education, is longer than four 
years. As a result, we put this bill together to address both 
issues.
    As a background further, only four percent is--from our 
research, only four percent of our American undergraduates are 
in STEM education. In China, however, it is 22 percent.
    So, in America, nearly 40 percent of our undergraduates in 
engineering are here on a student visa and then they take that 
degree, that education process and go back to their country to 
compete with us in America from their foreign--from their 
country.
    So, we wanted--we thought that we, as a country, can do 
better. We have already--as Congressman Titus has said they are 
ready and deserving qualified students, veterans that need our 
help to work with them. The genesis of this bill came from 
discussions with the students from the roundtables that I would 
have around the district talking to the students at the 
campuses, and they would tell me how long--like four years, 
four and a half years, five years, five and a half years, so 
you get their engineering or their science degree. They needed 
help.
    So we knew there was this--the one thing they kept 
emphasizing is this trip. They had been overseas for two or 
three years. They come back and go in an academic setting, that 
caused them time to get back into that grooves, so to speak, as 
to be able to do that.
    So, we are trying to help them. These veterans need that 
flexibility and financial resources to complete their degree. 
Due to the extended nature of most STEM course programs, 
student veterans take on additional debt to complete their 
degree or sometimes they will choose to postpone their degree 
or some never complete their education because of the 
additional costs that are incurred with that.
    Our bill will reduce--will also help reduce that 
possibility of student debt. If costs are a concern--and they 
should be at some factor--well, many--one way that we 
considered doing in this piece of legislation is controlling 
the costs by limiting the number of slots that could be made 
available to our veterans, just like we do in the medical 
profession. There, perhaps if we were to limit it to 5,000 
students a year to be eligible for this help, that would make 
it a very manageable cost to be able to do that, to be able to 
help out in our STEM education.
    So, working with the Committee and the stakeholders, we 
believe this legislation creates a pathway to graduate an 
additional 5,000 professionals into the STEM program to help 
grow America.
    We look forward to working with this Committee and outside 
stakeholders to improve the bill and move it forward. And, 
remember, this transition from a military environment to an 
academic campus is not always an easy one if you are, been away 
from that for years. We owe it to the men and women who 
deserve--everything that they have done for us--to help them 
return to civilian life and help them pursue their dreams and 
help our country.
    So, Chairman Wenstrup, Ranking Member Takano, Congresswoman 
Titus, thank you all very much, all of you, and the Committee 
Members for being here today, and I hope that you will give 
serious consideration as to how we can help our veterans. Thank 
you.
    Mr. Wenstrup. Thank you, Mr. McKinley.
    Mr. Cook, you are now recognized.

                 OPENING STATEMENT OF PAUL COOK

    Mr. Cook. Thank you, Chairman Wenstrup, for the opportunity 
to speak today on a bill that is especially important to me. As 
a combat veteran, I am deeply concerned that the men and women 
of our Armed Forces continue to struggle to find jobs upon 
their return to civilian life. These individuals have not only 
displayed great courage serving their country, but have 
acquired distinctive skills that make them ideal candidates for 
employment.
    Veterans who serve this country honorably should never 
struggle to find employment, which is why I have introduced 
H.R. 3286, the Honoring Investments in Recruiting and Employing 
American military veterans active of 2005, the HIRE Veterans 
Act would establish a self-funded program within the Department 
of Labor that encourages private sector employers to hire and 
retain veterans; specifically encourages effective voluntary 
private sector investments to recruit, employ, and retain men 
and women, who have served in the United States military, and 
with annual presidential awards to private sector employers, 
recognizing those efforts and for other purposes.
    To ensure proper oversight, the sec stair of labor would be 
required to provide Congress with annual reports on the success 
of the programs and the hiring, and the retention of veterans. 
The program would be completely voluntary and it would be 
funded through a small fee, paid by willing employers when 
applying for the award.
    The bill goes beyond simply recognizing that a business 
hires a veteran; it is critical that we establish a nationwide 
gold standard that creates a strong and consistent brand. This 
Act is an opportunity for Americans to see which companies 
truly live up to the employment promises they make to veterans.
    It is our duty to ensure veterans receive the benefits and 
resources they are earned through their services to this 
country and this includes encouraging meaningful job 
opportunities. This bill creates an innovative system to 
encourage and recognize employers who have made veterans a 
priority in their hiring practice and incentivizing the 
creation of thousands of jobs for veterans.
    I want to thank Ranking Member Takano for cosponsoring the 
HIRE Veterans Act. I would just like to add that part of the 
reason that I think this bill is very, very important, is we 
have done a terrible job on this. Over the years, you know, we 
have had people who have come back from combat, wounded, and 
everything else, and for a variety of reasons, they can't get a 
job.
    And with the help of employers, this is going to reward or 
incentivize and recognize those employers that have stepped up 
to the plate and helped make that very difficult transition for 
some people who have served our country.
    I want to thank the Committee for having me here today, and 
I welcome any questions.
    Mr. Wenstrup. Thank you, Mr. Cook.
    And I thank you all for bringing forth these bills and 
speaking on them at today's hearing.
    Unless there are any questions for our colleagues, you are 
now excused, and at this time, I would like to recognize our 
second panel of witnesses today.
    First, I want to welcome back Mr. Curt Coy, Deputy Under 
Secretary for Economic Opportunity at the U.S. Department of 
Veterans Affairs, who is accompanied by Ms. Carin Otero, 
Associate Deputy, Assistant Secretary for Policy and Planning 
at the U.S. Department of Veterans Affairs, and we also have 
Mr. Sam Shellenberger, who was the Deputy Assistant Secretary 
for Operations at the Veterans' Employment and Training Service 
at the U.S. Department of Labor.
    Very brief titles. I have to say your card must be very 
full. But I want to thank you all for being with us today.
    Mr. Coy, when you are ready, we will begin with you. You 
are now recognized for five minutes.

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Good morning. I am falling apart here.
    Well, good afternoon, Mr. Chairman, Ranking Member Takano, 
and other Members of the Subcommittee. Thank you for the 
opportunity to be here today and for your proactive interest in 
improving our programs.
    Accompanying me this afternoon, as you mentioned is Ms. 
Carin Otero, Associate Deputy Assistant Secretary for the 
office of the human resources.
    There are a couple of bills under discussion today that 
would affect programs or laws administered by the Department of 
Labor. Respectfully, we defer to our labor department 
colleagues on those bills.
    H.R. 748 provides up to nine additional--up to nine months 
of additional Post-9/11 GI Bill to an every single who has used 
all of their 36 months of benefits and is enrolled in a 
science, technology, or mathematics STEM program that requires 
more than the standard credit hours for completion or has 
earned a post-secondary degree in a STEM field and is enrolled 
in a program of education leading to a teaching certification.
    VA supports the intent of the proposed legislation, but 
there are a few nuances we would like to address and would be 
happy to work with the Committee to resolve them.
    H.R. 2551 authorizes VA to treat a pre-apprenticeship 
program in the same manner as an apprenticeship program, and 
would provide a monthly housing allowance for beneficiaries who 
are not paid as part of the pre-apprenticeship program. VA 
generally supports the intent of the proposed legislation, but 
has some concerns with implementation of this bill, as outlined 
in my written testimony.
    Again, we would be happy to work with the Committee, as 
well as our colleagues at Labor.
    H.R. 3419 authorizes the secretary to make grants to 
educational institutions who either establish or expand child 
care center or pay the costs of providing child care services 
at a center.
    Although VA supports the goal of providing affordable child 
care for those enrolled in higher education, VA does not 
support this bill, as written. We have concerns with the 
potential establishment of a child care center, due to life 
cycle costs involved to sustain it, as well as the management 
challenges associated with a variety of state and local laws. 
We would be happy to work with the Committee to outline our 
concerns.
    With respect to the bill, with several educational systems 
provisions, VA, again, thanks the Committee for your proactive 
support.
    Section 2, which would allow the proration of entitlement 
charges for licensing and certification examinations and 
national tests. This would certainly benefit veterans and their 
families by reducing the negative impact of the exam or test 
reimbursement on their remaining entitlement benefit.
    We would, however, suggest the provision specify the amount 
of benefit payment equalling one month of entitlement. Again, 
we would be happy to work with the Committee to address this.
    VA supports Section 3, which would authorize VA to round 
down the cost-of-living adjustments to the nearest who he will 
dollar for Chapter 30 and Chapter 35. VA also supports the 
reauthorization of the veterans advisory committee on 
education, through December 31, 2021, as described in Section 
4. This is a valuable Committee, providing expert advice.
    Section 5 authorizes VA to provide training requirements 
for school certifying officials. If an educational institution 
does not ensure that a school-certifying official meets the 
training requirements, VA may disapprove any course of 
education offered by the educational institution. A also 
supports this section.
    VA does not support, however, Section 6, which authorizes 
VA to reduce the amount of monthly housing stipend on a pro 
rata basis if an individual reduces the number of course hours 
at the beginning of an academic period. Authorizing VA to 
offset an individual's monthly housing stipend in this manner 
could create a financial burden on veterans and their families.
    VA prefers to focusing on strategies to minimize their 
frequency and magnitude of overpayments, rather than more 
aggressively recouping over payments in a manner that may be 
detrimental to beneficiaries.
    Section 7 would prohibit an educational institution for 
using or merging VA reporting fees with the amounts available 
with their general funds. VA does not support Section 7.
    Educational institutions are already required to use 
reporting fees solely for supporting veterans and their 
programs.
    VA also opposes 4138, which would authorize the secretary 
to recoup relocation allowance, paid to or on behalf of 
employees of VA. VA agrees Federal employees should be held 
accountable and supports action taking to collect debts when 
employees have been paid incorrectly, and has established a 
strong internal policy implementing the Federal Claims 
Collection Act.
    Section 2 of the GI Bill Oversight Act requires VA's Office 
of the Inspector General to research and conduct investigations 
involving institutions of higher learning that are defendants 
in a class action lawsuit for deceptive or misleading practice 
or being investigated by a Federal or a state agency or have 
been found guilty by any state or state--Federal or state 
agency of deceptive or misleading practices. It is my 
understanding that the Committee has the VA OIG comments for 
Section 2 separately.
    Section 3 of this bill requires VA to disapprove courses of 
education in IHL found guilty by OIG of deceptive or misleading 
practices. VA currently has this authority but supports the 
general intent behind the legislation.
    VA currently has 79 full-time counselors at 94 campuses 
under our VetSuccess on Campus Program. We are supportive and 
appreciate I have to codify the existing program. One minor 
point, however, education and vocational services are available 
to servicemembers, veterans, and their dependents, but the bill 
refers to veterans only. As such, VA recommends that the bill 
be expanded to servicemembers and dependents.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to appear before you today, and I would 
certainly be pleased to respond to any questions that you or 
any Members of the Subcommittee may have.

    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you, Mr. Coy. We are going to 
shift gears for just a moment from this panel and I would like 
to recognize Ms. McSally for comments on her bill.

              OPENING STATEMENT OF MARTHA MCSALLY

    Ms. McSally. Good afternoon. Thank you, Mr. Chairman. 
Thanks Chairman Wenstrup, Ranking Member Takano, for allowing 
me to speak on behalf of my bill today, H.R. 2551, the 
Veterans' Entry to Apprenticeship Act.
    As a veteran myself, I know personally when somebody raises 
their right hand and volunteers to defend our Nation, we commit 
to doing all we can to assist them when they return.
    Part of that process means helping our veterans transition 
to civilian life after their service. Unfortunately, we are not 
living up to that responsibility. A 2015 GAO Report revealed 
for veterans age 18 to 34, the unemployment rate was 20 percent 
higher than unemployment rate for non-veterans. We can and must 
do better for our war heroes.
    I am here today to talk about a common sense solution that 
would help our veterans get needed skills to better their 
career options. Under current law, GI Bill benefits cannot be 
used to cover the cost of Department of Labor approved pre-
apprenticeship training, which is required to enter certain 
trade fields.
    This can often be an insurmountable barrier for a veteran 
wanting to enter apprenticeship programs with their GI Bill to 
gain new skills for good jobs. Pre-apprenticeship programs are 
classroom-based courses that prepare individuals to enter a 
more advanced level of apprenticeship training. These programs 
lay the ground work for an enrollee to enter a skilled trade, 
including providing counselling to put them on a path to enter 
the workforce.
    My bill, H.R. 2551, removes barriers to these valuable 
programs and provides our veterans the ability to use their 
educational benefits under the GI Bill to learn these critical 
workplace skills. In a nutshell, the bill helps veterans obtain 
good-paying jobs and these are the benefits they have earned.
    Increasingly, we have seen an expansion of pre-
apprenticeship and apprenticeship programs in high-tech fields. 
In my own district, a veteran-owned manufacturing company that 
creates products for the semiconductor, aerospace, optics, and 
mining industries has utilized these programs to their 
advantage. Pre-apprenticeship programs have made it possible 
for this company to recruit and train the talent needed to 
ensure it can flourish, while providing veterans the 
competitive wages that they deserve.
    As another example, the Arizona Department of 
Transportation offers a pre-apprenticeship program in highway 
construction that includes hands-on instruction and trips to 
job and training sites. The course includes training to ensure 
a seamless transition to a U.S. Department of Labor registered 
apprenticeship program.
    With these benefits, it is only common sense that we expand 
access to these programs for veterans looking for work. My 
bipartisan bill comes at a time when our skilled workforce is 
aging steadily, and our Nation is seeking--is seeing a 
significant shortage of new workers to fill these high-skilled 
jobs.
    According to a study conducted in 2012, 53 percent of 
skilled U.S. workers were 45 years or older; 20 percent were 
over 55; likewise, there are as many as 500,000 manufacturing 
jobs currently going unfilled because employers say they cannot 
find qualified workers.
    With an increasing number of Post-9/11 veterans looking to 
enter the workforce, and an estimated 573,000 unemployed 
veterans in 2014, now is the perfect time to encourage our war 
fighters to pursue careers in apprenticeship--apprenticeable 
occupations; that is a new word. This would be a win, not just 
for our veterans, but also for local employers, as well.
    In closing, I want to thank Congresswoman Tulsi Gabbard, 
for her strong leadership and being my wing-woman on this 
important issue. Additionally, I would like to thank the other 
33 cosponsors, many of whom are Members of this Committee, as 
well as the various groups that are supporting this bill, 
including the National Guard Association of the United States, 
the Reserve Officers Association, the Enlisted Association of 
the National Guard United States, the National Roofing 
Contractors Association, the National Association of Home 
Builders, and the Associated General Contractors of America for 
their support.
    Lastly, I would like to thank the Committee for giving me 
this time to speak before you today, and I appreciate your 
consideration of this bill.
    Mr. Wenstrup. Thank you, Ms. McSally.
    Mr. Shellenberger, you are now recognized.

                 STATEMENT OF SAM SHELLENBERGER

    Mr. Shellenberger. Thank you, Mr. Chairman.
    Good afternoon Chairman Wenstrup, Ranking Member Takano, 
and distinguished Members of the Subcommittee. Thank you for 
giving me the opportunity to participate in today's hearing.
    As deputy assistant secretary for operations and management 
of the Veterans' Employment and Training Service at the 
Department of Labor, I appreciate the opportunity to discuss 
the department's views on pending legislation and proposals 
that impact veterans' employment. As a Navy veteran, the son of 
an Army Air Corps veteran and the father of an Army officer, I 
take DOL's mission to help veterans, transitioning 
servicemembers, and military families personally.
    I am pleased to report that the employment situation for 
veterans continues to improve. Last month marked 23 months out 
of the past two years where veteran unemployment was lower than 
non-veteran unemployment; still, DOL will not rest until all 
veterans find meaningful employment.
    I will limit my remarks today to proposed bills that have a 
direct impact on the programs administered by the Department of 
Labor. These include the Veterans Entry to Apprenticeship Act, 
the HIRE Vets Act, and a draft bill to evaluate the 
effectiveness of the Transition Assistance Program, in 
addressing the needs of certain minority veterans.
    The Veterans Entry to Apprenticeship Act would allow 
covered veterans to utilize their education benefits for pre-
apprenticeship programs.
    Since the administration of the provisions of this bill 
would fall to the VA, the department will defer to that agency 
for specific concerns related to the legislation overall; 
however, the department does reiterate its support for 
registered apprenticeship programs as a proven pipeline for 
veterans to meaningful civilian careers.
    Pre-apprenticeship programs, when properly structured, 
represent an excellent opportunity to expand the aperture of 
apprenticeship pipelines for our veterans.
    With regard to the HIRE Vets Act, DOL applauds the intent 
of this bill and all efforts to ensure that our veterans find 
civilian employment following separation from the military; 
however, we would like to note some concerns regarding our 
ability to successfully implement the program, as currently 
drafted. I have addressed these concerns in more specific 
detail in my written testimony. For example, the Medallion 
Award Fund as contemplated in the bill, is not self-executing.
    DOL would not have access to the fees in the fund unless 
and until Congress appropriates those fees to the agency. And 
it is difficult to determine a reasonable fee that employers 
would contribute that would be sufficient to enable vets to 
carry out many of the requirements of the bill. DOL would 
likely require additional staff in order to verify the 
information provided in the applications; however, if the 
criteria, instead, were limited to measuring only entered and 
retained veteran employment rates, there may be opportunities 
to leverage existing Federal and state databases just to 
confirm those numbers.
    Lastly, I will touch on Mr. Takano's Transition Assistance 
Program evaluation bill. As a partner agency in the Transition 
Program, and as a member of the TAP performance management 
working group, DOL is currently conducting evaluations to 
assess the long-term outcomes of TAP. The Department of Labor's 
chief evaluation office conducted an assessment in 2013 and 
based on those findings, awarded a contract to conduct a two-
part evaluation of the outcomes of the DOL employment workshop.
    The first part will analyze the impacts of the workshop on 
employment-related outcomes for separating servicemembers. Data 
collection is currently underway and is expected to occur 
through fiscal year 2017. The analyses are expected to be 
conducted and finalized in fiscal year 2017.
    The second part of the study consists of the pilot to 
evaluate differential impacts of delivery approaches, such as 
the use of social media for the employment workshop. The 
intervention design and feasibility analysis is currently 
underway for that study.
    While the department supports the intent and the spirit of 
the draft legislation, DOL would prefer to wait until the 
current evaluation work is concluded in the summer of 2017 
before beginning another research program on TAP.
    The department looks forward to continuing our work with 
the Subcommittee to ensure that our veterans have the resources 
they need to successfully compete in the civilian workforce. 
The improving employment situation for veterans is a resounding 
testament to the impact of Federal programs and the nationwide 
response from public and private stakeholders, acting 
nationally and within local communities.
    Mr. Chairman, Ranking Member Takano, distinguished Members 
of the Subcommittee, this concludes my oral remarks. Thank you 
for the opportunity to be part of the hearing, and I will look 
forward to responding to your questions.

    [The prepared statement of Sam Shellenberger appears in the 
Appendix]

    Mr. Wenstrup. Well, I thank you for your remarks, and at 
this time, I will yield myself five minutes for questions, and, 
first, for Mr. Coy, regarding Chairman Miller's bill, HR 4138, 
it is the authority to collect the debt if an employee has been 
improperly paid, however, I am not clear if they are able to do 
so, if the payment at the time was correct but it was later 
found that the employee received the payment through some ill-
gotten means, if there was some misbehavior to get to that 
point, if you would have the authority to recoup it.
    So, can you tell us what exact authority they currently 
have, the secretary currently has, and if this authority was 
available for the secretary at the time, say, of the relocation 
expenses that were paid to Ms. Rubens and Ms. Graves; could he 
have rescinded that if he wanted to?
    Mr. Coy. If I may, Ms. Chairman, I would like Mr. Otero to 
answer that; our H.R. expert.
    Mr. Wenstrup. Thank you.
    Mr. Coy. Karen?
    Ms. Otero. Good afternoon, Mr. Chairman. The department has 
a current authority that allows if an improper payment is made, 
that it allows us to recoup the payment and we have the Federal 
Claims Collection Act.
    In the case of Ms. Rubens and Ms. Graves, in our 
investigation of the matter, their superiors made the decision 
to offer a relocation, and so once it was authorized, the 
relocation, in fact, became allowable, the relocation 
occurred--
    Mr. Wenstrup. I appreciate that, but that is not my 
question.
    Ms. Otero. Yes.
    Mr. Wenstrup. My question is, hypothetically, if they found 
that the reason that it was okayed by the supervisor was 
through some nefarious behavior, would the secretary have the 
authority to take that away if this bill is passed?
    Ms. Otero. The secretary would have the authority to manage 
the decision made by the higher-level official who authorized 
the payment.
    Mr. Wenstrup. I don't--
    Ms. Otero [continued]. And so that would be outside--
    Mr. Wenstrup [continued]. I am asking you yes or no, and I 
am not getting that. I want to know--I want the secretary to 
have the ability to recoup taxpayer dollars if the person used 
some nefarious behavior to get to where they got.
    So whether the supervisor was duped into this situation or 
whatever the case may be, if that person acted in a way that 
was not correct or nefarious in some way, will the secretary 
have the authority to take that back, because--that is really 
what I am asking here.
    I understand in that situation, the supervisor may have 
gone ahead and done it, but if the supervisor was misled by 
information, they are clean. But the point is, going back 
further, if it was bad behavior that led to the supervisor's 
decision, does the secretary have the authority under this 
bill, then, to retract that payment?
    Ms. Otero. I don't think with this bill makes--would make a 
difference. I do believe that if there was nefarious behavior, 
I believe it would be uncovered in an investigation, in theory, 
if it was, in theory, nefarious behavior.
    Mr. Wenstrup. Well, thank you. I appreciate that, and I 
will move on from there.
    Going back to Mr. Coy, the GI Bill Oversight Act would 
require VA and the VA OIG to take certain steps when a school 
is under an investigation by state or Federal entities. And, 
you know, anyone can bring forward allegations and initiate an 
investigation, if you will, so I want to get your opinion on 
whether you think it is prudent to require the VA and the VA 
OIG to take action, based on allegations or investigations 
before facts and substantiated allegations?
    Mr. Coy. Thank you for that question, Mr. Chairman. I think 
you are referring to--
    Thank you, Sam. I think you are referring to Section 3, 
that if the OIG finds someone guilty or an institution guilty, 
that we should automatically withdraw the funds from that 
school.
    My concern, and right now, we--what we say is, we support 
the intent, but we have some concerns or issues about it. One 
of the concerns I would certainly have is, OIG generally does 
investigations, and once that investigation is done, you know, 
it would be handed over to us, the education folks, or some 
other body, for example, FTC or Justice, you know, for any 
criminal intent.
    So there is an issue of whether or not--what the definition 
of guilty is, if you will.
    The other issue is, is we certainly have a concern that we 
would need some ability for discretion, with respect to this. 
The way the current bill is written, it is almost an absolute 
is.
    So, the two concerns I would suggest is, A, OIG 
investigating and determining ``guilt,'' which I think the way 
the bill is written, and so we have a little bit of concern 
about that, and then, secondly, if there was some definition of 
guilt there, there is also an extent of--what is the extent of 
the deceptive marketing that is there?
    Doing an automatic withdrawal, without having any 
discretion to leverage some judgment in there, is the kinds of 
things that we would be happy to work with the Committee to try 
and resolve those particular issues.
    Mr. Wenstrup. And I think that is what we need to work on 
and clarify is, really, what stage--really, what does that 
mean? You don't want one school competing with another; 
therefore, launching an investigation or allegations and have 
this take place, where we would want to be able to clarify 
that.
    Mr. Coy. Yes, sir.
    Mr. Wenstrup. Thank you. I now recognize Mr. Takano for 
five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Coy, thank you for signing the memorandum of 
understanding with the Federal Trade Commission in November of 
2015 to involve the FTC in carrying on investigations and 
making the VA's determinations of deceptive or misleading 
practices by IHLs in violation of Title 38, Section 3696.
    My question to you is, has the VA referred any cases to the 
FTC since the VA/FTC MOU was signed?
    Mr. Coy. No, sir, we have not.
    Mr. Takano. Well, I also want to thank you for your support 
of the intent behind my legislation. We had been working with 
the OIG to address their concerns and this process will 
continue.
    But please describe how the VA uses its existing discretion 
to protect veterans from wasting their hard-earned, but limited 
GI Bill entitlement.
    Mr. Coy. Thank you, Mr. Takano. We have been--especially as 
of late, in the last several years--been working very hard and 
very diligently to try and make sure that veterans--that 
veterans are informed consumers. And what we do with that is, 
we want to make sure that--we have done a number of things.
    There is a public law that we certainly implemented, as 
well as the president's principles of excellence, and we have 
gotten 6,000 schools. We created the GI Bill comparison tool. 
So far in just the las few years, since its inception, we have 
had over 2.5 million folks use it. You know, I think most folks 
are familiar with the comparison tool, but we have caution 
flags that are available on there.
    We have added a number of features like outcome measures at 
particular schools and those kinds of things.
    We also have our GI Bill feedback tool that has been built 
in just the last few years. That GI Bill feedback tool so far 
has already received about 3800 valid complaints. We have 
resolved about 3500 of them. This year alone, we received 890 
complaints and referred those to schools. So, we think the 
feedback tool is a valuable mechanism to be able to do that.
    We also, as a result of some of those complaints, we have 
conducted 109 risk-based compliance reviews; in other words, 
they have gone outed to schools and taken a look at them and 
seeing if some of the issues we have are true, and what are the 
resolution of those particular issues.
    We have also looked at--we trademarked the GI Bill, and so 
far, we have already used that authority 21 times to call 
somebody up and say, we think you are using the term ``GI 
Bill'' improperly.
    Finally, I would suggest that in the last five years, we 
have withdrawn authority for the GI Bill to about 33 schools 
working with our VSA partners in the field, to, in fact, do 
withdrawals of those 33 schools, based upon fraud, misleading 
or deceptive practices.
    Mr. Takano. Well, with regard to that action you--the last 
action that you described, what would trigger it? What sort of 
triggers make that happen?
    Mr. Coy. There are a number of triggers. One, it could be 
through the GI Bill complaint system that we have. And the way 
we work with that is someone submits the complaint, the first 
thing we do is, we find out whether or not that complaint is a 
valid complaint. There are some complaints that aren't really 
for the principles of excellence and the kinds of things. Their 
complaint is about parking tickets and so on and so forth, and 
we sort of scrape those away.
    Mr. Takano. But how bad does it have to get in order to 
rise to the level of an action that--of withholding a--
    Mr. Coy. In nine times out of ten, it is an individual 
judgment. We also have our SAAs. Joe Wescott is on the next 
panel, and we work very closely with the SAAs. So we may have 
an SAA go look at the issue. We may send out our own team to go 
do it.
    Each one is a little bit different. If you look at the 33 
schools, some are very small, and so that is a different 
methodology than we would do for somebody that is a little bit 
larger.
    For example, when DoD suspended tuition assistance for the 
University of Phoenix, we did risk-based compliance reviews of 
all 83 of their campuses.
    Mr. Takano. Okay. It seems to me that there needs to be 
more consistency and a firmer idea of a procedure within the 
Department. And, anyway, my time is up and I yield back.
    Mr. Wenstrup. Ms. Titus, you are now recognized for five 
minutes.
    Ms. Titus. Thank you very much. I would just like to ask 
you, Mr. Coy, about the childcare bill that I introduced. I 
introduced that because I was meeting with a group of student 
veterans at UNLV, and one single mother told me that she loved 
going back to school. She wanted to get a degree. She 
appreciated the GI Bill, but she was afraid she was going to 
have to drop out because she could not balance being a single 
mother with being a full-time student.
    So I would just ask you if you know what the percentage is 
of students who use the GI Bill but do not complete their 
degree program, how many of those are women? And if you do any 
interviews with students who enroll but do not complete to ask 
them why they possibly had to drop out before graduating?
    Mr. Coy. If you are asking, and I will try and understand 
the question back, so you are asking how many of our GI Bill 
students did not complete their degree because of a childcare 
issue or concern?
    Ms. Titus. Now, I doubt if you have that information.
    Mr. Coy. No, ma'am, I do not.
    Ms. Titus. But I was going to say how many of them do not 
complete their degree? How many of them are women? And do you 
do any outreach to those who do not complete their degree to 
ask them why not?
    Mr. Coy. I think we can probably get the statistics on the 
number of women that are not completing their degrees. Part of 
the problem with that, just to caveat it is, these students 
have 15 years to use their GI Bill benefits, so somebody may 
not go back to school next semester, but they will go in two 
years from now. So it doesn't mean that they are not going to 
complete their degree. It just means that they haven't done it 
just yet.
    Ms. Titus. I think you will find there are statistics that 
show that if you don't complete your degree within a certain 
amount of time, you don't ever go back.
    Mr. Coy. I would agree with that--
    Ms. Titus. So I think that--
    Mr. Coy [continued]. --that is true.
    Ms. Titus [continued]. --kind of is a wash there.
    Mr. Coy. I--no, I would agree that that probably in many 
cases, that is true.
    Ms. Titus. Do you think you could find some of those 
statistics for me? Because I think that would help to provide 
some support for the need for childcare to help people to 
complete their degree program. It is not all women, but it will 
be largely women.
    Mr. Coy. I would be happy to try and see if we can get 
those statistics for you.
    Ms. Titus. Okay, thank you. Thank you, Mr. Chairman.
    Mr. Wenstrup. If there are no further questions, the panel 
is now excused.
    And I now invite our third and final panel to the table. 
Joining us is Mr. Davy Leghorn, Assistant Director for the 
Veterans Employment and Education Division at The American 
Legion; Dr. Joseph Wescott, Legislative Director for the 
National Association of State Approving Agencies; Mr. Walter 
Ochinko, Policy Director for Veterans Education Success; Mr. 
Jared Lyon, President and CEO of Student Veterans of America; 
and Mr. Aleks Morosky, Deputy Director of the National 
Legislative Service of the Veterans of Foreign Wars of the 
United States.
    I thank you all for being here today, for your service to 
our Nation in uniform, and for your hard work and advocacy on 
behalf of our Nation's veterans. It is greatly appreciated.
    Mr. Leghorn, we will begin with you, and you are now 
recognized for five minutes.

                   STATEMENT OF DAVY LEGHORN

    Mr. Leghorn. Chairman Wenstrup, Ranking Member Takano, and 
distinguished Members of the Subcommittee, on behalf of our 
National Commander, Dale Barnett and the more than two million 
members of The American Legion, thank you for the opportunity 
to explain our positions on legislation before the 
Subcommittee.
    Our positions on the nine pieces of legislation addressed 
today are a matter of record. The American Legion would like to 
focus the duration of our time on two pieces of legislation.
    There is a lot of talk these days about the top one percent 
and the middle class. But no one likes to talk about the bottom 
one percent that reside on the reservations and insular 
territories and commonwealths. The American Legion would like 
to thank Ranking Member Takano and Representative Radewagen for 
proposing legislation that would require the Department of 
Labor to take a closer look at the effectiveness of TAP in 
addressing the unique needs of veterans in marginalized 
populations.
    The American Legion recognizes that different groups of 
people or communities have their own set of challenges. Paths 
to gainful employment differ greatly from locality to locality. 
In an effort to provide programs and services to the majority 
of our veterans, sometimes small pockets of veterans are 
overlooked. The American Legion sees that what works everywhere 
else in the country often does not work for our Native 
American, Alaskan Native, and Pacific Insular veterans.
    To give the Committee a snapshot of what Native American or 
Alaskan Native veterans return to after service, they go back 
to a community with close to 30 percent of the population 
living below the poverty line and where nearly 40 percent of 
the population do not work or have given up on looking for 
work.
    Private sector jobs are practically nonexistent due to a 
lack of development, and the closest job could be 50 to 100 
miles away from tribal territory. But chances are they are not 
even going to get that job, because they have bad credit and do 
not have reliable transportation.
    Health is declining because of bad diet, and the closest 
adequate health care provider is hundreds of miles away. In 
fact, the only thing there isn't a lack of nearby are predatory 
businesses who target the low-income population, fleecing them 
out of their last dollar.
    This bleak snapshot is nearly the same for our Pacific 
island veterans who are only faring marginally better than 
their counterparts on reservations and tribal lands.
    In the tribal lands and Pacific islands, there are very few 
jobs. In these places, local and Federal government are often 
the largest employers. These communities are dying. They need 
rural and economic development more than they need another 
veteran with a polished resume.
    The way to revitalize these communities is by teaching our 
veterans to become local business leaders and job creators. For 
our veterans going back to these areas, their TAP classes need 
to focus more on SBA's Boots to Business Entrepreneurship 
course, with some emphasis on the agriculture industry and USDA 
programs.
    It is our hope that the results from this proposed study 
would assist DoD in making TAP more relevant to our veterans in 
marginalized populations and close the loopholes that prevent 
our Native American, Alaskan Native, and insular veterans from 
accessing Federal veterans benefits.
    Lastly, The American Legion would like to draw attention to 
the draft legislation which focuses on improving the 
administration of the post 9/11 GI Bill. While The American 
Legion supports efforts here to reduce the occurrence of 
overpayments, we offer one caveat regarding Section 6.
    The American Legion does not believe a veteran student 
enrolls in a college course with the intention of dropping it 
later for secondary gain. Extenuating circumstances are often 
the reason for the courses being dropped. For the students 
attending college full-time, their rent and living expenses are 
not reduced when they drop a course. Reducing their living 
stipend in this instance imposes a burden that might result in 
some students dropping out of school and will cause more 
problems than this legislation intends to solve.
    While all full-time students are affected, the full-time 
students at brick and mortar universities stand to lose the 
most with this change. The American Legion would like to see 
some protections for these full-time students who unwittingly 
become part-time students through no fault of their own.
    Chairman Wenstrup, Ranking Member Takano, and Distinguished 
Members of the Subcommittee, The American Legion thanks you for 
the opportunity to testify this afternoon. We look forward to 
any questions you may have.

    [The prepared statement of Davy Leghorn appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you, Mr. Leghorn. Dr. Westcott, 
you are now recognized for five minutes.

                STATEMENT OF DR. JOSEPH WESTCOTT

    Mr. Westcott. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Subcommittee on Economic Opportunity, I am 
pleased to appear before you today on behalf of The National 
Association of State Approving Agencies and provide comments on 
certain bills pending before this Committee. I am accompanied 
today by our Legislative Committee Vice Chair, Retired Sergeant 
Major Robert Haley.
    H.R. 2551, The Veterans Entry to Apprenticeship Act, NASA 
supports this Bill, particularly as it could serve to increase 
enrollment and improve apprenticeship programs, but would offer 
the following recommendations.
    First, to ensure only quality programs are approved, we 
believe that approval authority should rest with the state 
approving agency.
    Second, specific approval criteria should be developed in 
addition to those items identified in the bill, such as 
requiring that hours should be credited towards total required 
hours in the apprenticeship program.
    And the state approving agency should find that there exist 
a reasonable certainty that the apprentice program will be 
available at the end of the training period.
    The GI Bill Oversight Act of 2016. NASA supports this bill, 
but we would like to see the language of the bill expanded to 
include non-college degree schools approved for GI Bill 
benefits.
    We recommend Section 2 be modified to specify the purpose 
and scope of the Inspector General's investigation, and to add 
to Subsection (b)(ii) that students provide to the Inspector 
General any information that might be relevant to the 
investigation.
    We also would recommend adding the requirement that the 
Inspector General will notify the appropriate state approving 
agency upon commencing an investigation and share their 
findings at the conclusion thereof. Also, state approving 
agencies should retain both the approval and disapproval 
authority.
    Proposed legislation, a bill to make certain improvements 
in the laws administered by the Secretary of Veterans Affairs 
relating to educational assistance and for other purposes. NASA 
supports this bill, but would suggest recommendations regarding 
Section 5.
    While we agree that the training of school certifying 
officials should be a requirement, that training should not 
solely be the responsibility of the VA. In the past, state 
approving agencies regularly provided one-on-one targeted 
training to certifying officials.
    Prior to fiscal year 2012, when the ASAs began assisting 
the VA with compliance surveys, state approving agencies 
conducted supervisory visits at 80 to 90 percent of our active 
facilities every year. On-site training of SCOs was a core 
component of these supervisory visits. Now, as a result of 
conducting compliance surveys on behalf of the VA, we only 
visit approximately 15 percent of our active facilities each 
year.
    While we provide training to the extent we can in 
conjunction with compliance surveys, it is clear that the 
compliance survey assignments have greatly reduced our ability 
to regularly visit and train certifying officials. We would 
suggest that this reduction in on-site training during SA 
supervisory visits has played a roll in the increased 
percentage of GI Bill overpayments due to certifying official 
errors as discussed in the GAO Report from October 2015.
    We would ascertain that a better balance of supervisory 
visits and compliance survey visits will result in better 
training and oversight, as well as fewer overpayments. As such, 
we believe that the development of the training recommended in 
the GAO Report should be a collaborative effort between VA and 
NASA, with input from school certifying officials. We would 
also suggest the following modifications.
    First, in Subsection A, program disapproval authority would 
primarily reside with state approving agencies. Second, NASA 
recommends limiting any requirement for off-site training to 
those institutions with more than 20 GI Bill recipients 
annually. This will mitigate what could be perceived as an 
onerous training requirement for schools with few GI Bill 
recipients. However, we do believe reasonable and proper online 
training should be mandatory for all certifying officials.
    Mr. Chairman, today, over 55 SAs composed of approximately 
175 professional and support personnel are supervising over 
14,000 active facilities with more than 100,000 programs. We 
are extremely grateful for the opportunity to once again appear 
before this Committee to share our views. And we remain 
committed to working with you, our VA partners, VSO 
stakeholders, and educational institutions on these and other 
initiatives designed to provide our veterans a path to a better 
future.
    Mr. Chairman, I look forward to answering any of your 
questions that you or Committee Members may have.

    [The prepared statement of Dr. Joseph Westcott appears in 
the Appendix]

    Mr. Wenstrup. Well, thank you, Doctor. Mr. Ochinko, you are 
now recognized for five minutes.

                  STATEMENT OF WALTER OCHINKO

    Mr. Ochinko. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Subcommittee, thank you for inviting Veterans 
Education Success to testify on the GI Bill Oversight Act of 
2016. Veterans Education Success believes that the GI Bill 
Oversight Act seeks to address a critical shortcoming in the 
management of GI Bill educational benefits of the VA, the lack 
of enforcement to protect veterans from the predatory behavior 
of some schools.
    When it comes to oversight of the GI Bill, VA's practice to 
date has been to focus on managing and tracking benefit 
payments. Protecting veterans' hard-earned educational benefits 
and taxpayers' investment from fraud or abuse receives far too 
little attention.
    Last month the House approved a bipartisan bill reported 
out of this Subcommittee, the Career Ready Student Veterans 
Act. The bill would prohibit participation of the GI Bill by 
any school that recruits students using misleading information 
about its accreditation and the ability of graduates to 
subsequently get jobs in their field of study.
    Misrepresentation by some schools, however, goes beyond 
accreditation issues. As demonstrated by 14 Federal and state 
settlements, some predatory schools also provide students with 
misleading information about costs, transfer of credits, job 
placement rates, post-graduation salaries, and other issues 
where reliable data are key to student veterans making an 
informed choice.
    Only one of the 14 settlements resulted in the posting of a 
caution flag on the GI Bill college comparison tool. My written 
testimony contains an attachment summarizing the findings of 
these 14 Federal and state settlements. Although the 
settlements resulted in $276 million in fines, which provided 
some relief to students, veteran students were not made whole. 
The GI Bill benefits they used at these predatory schools are 
gone forever, underscoring the importance of ensuring that all 
schools provide veterans accurate information when they are 
shopping for a school.
    Fortunately, statutory protection is already in place. 
Unfortunately, they are not being enforced. In 1974, Congress 
enacted Section 3696 of Title 38, which prohibits VA from 
allowing veterans to enroll in schools that engage in 
misleading and deceptive advertising and recruiting. Some of 
these same schools that provide misleading information to 
veterans about accreditation today were engaged in the same 
behavior in 1974.
    In the July 2015 letter to eight U.S. senators, VA asserted 
that the Department lacked the authority to disapprove funds to 
schools. A recent report by the Yale Veterans Law Clinic 
concluded that Section 3696 obligates VA to exclude schools 
involved in misrepresentation from participation of the GI 
Bill, and that both VA and state approving agencies have clear 
authority to do so.
    For more than 40 years, neither VA nor SAAs have enforced 
Section 3696. Looking for indications of fraudulent and 
aggressive recruiting was only added to the SAA compliance 
survey checklist in August 2014. According to a former SAA 
director, compliance reviews focus on whether the payments to 
the schools are accurate.
    In December of 2015, the Virginia SAA withdrew the approval 
of ECPI's Medical Career Institute for violating the Section 
3696. VA declined to release the SA compliance reports, leaving 
unchallenged ECPI's assertions that it had done nothing wrong. 
And this is not the first time that VA declined to support the 
actions of SAAs.
    Section 3696 required the VA to negotiate a memorandum of 
understanding with the Federal Trade Commission to investigate 
schools suspected of misleading veterans, but that MOU was not 
signed until November 2015, more than 40 years after the 
enactment of Section 3696.
    Perhaps the most obvious example of VA's inaction in the 
face of evidence that a school engages in misleading 
advertising and recruiting, is the May 2016 FTC settlement with 
Ashworth College. The FTC found that many programs offered by 
this school did not meet state requirements for those careers, 
including teachers and massage therapists, and that claims made 
about credit transfers were often not true.
    In reaching the settlement, Ashworth College admitted no 
wrongdoing. The settlement appears to meet the criteria set 
forth in Section 3696 for terminating the school's 
participation in the GI Bill, even though the FTC investigation 
was not requested by VA, and the settlement was announced about 
five months before the completion of the VA/FTC MOU.
    What action has the VA taken? Ashworth College is still 
approved to receive the GI Bill educational benefits. The GI 
Bill College Comparison Tool contains no warning to veterans 
about the FTC settlement and findings. Ashworth is still listed 
as subscribing to and following the principles of excellence on 
the GI Bill College Comparison Tool.
    VA's failure to revoke approval of Ashworth or any of the 
schools already successfully sued by state attorneys general or 
Federal agency raises questions about the processes in place to 
respond to findings of deceptive and misleading advertising, 
sales, or enrollment practices.
    Before closing, I would like to acknowledge VA's recent 
action to suspend the principles of excellence designation of a 
school that the FTC is investigating for misleading advertising 
and recruiting, and initiate compliance reviews of all the 
school's campuses. Note that the school's eligibility to 
participate in the GI Bill has not been affected, because the 
investigation is ongoing, and that is probably appropriate. VES 
applauds VA's action and believes that it is an encouraging 
sign.
    Finally, combating fraud and abuse by predatory schools 
needs to be a top Federal, as well as a top VA, priority. The 
GI Bill Oversight Act would help to elevate the priority placed 
on protecting veterans and increase the efforts to enforce VA's 
existing statutory and regulatory requirements to prohibit 
misrepresentation and deceptive recruiting.
    By engaging the VA's Office of Inspector General, the 
enforcement process, the bill jumpstarts departmental 
enforcement by turning to an existing well-trained, resourced 
and audit investigation-oriented organization. Equally 
important, however, is changing the mindset of VA that paying 
benefits is only one part of VA's mission to serve veterans.
    VA must do more than simply track the dollars out the door. 
It must take seriously its statutory obligation to protect 
veterans from deceptive recruiting and protect taxpayers' 
investments from fraud, waste, and abuse.
    Chairman Wenstrup, Ranking Member Takano, and Subcommittee 
Members, thank you again for the opportunity to testify and for 
your commitment to ensuring that veterans can make an informed 
choice when they use their hand-earned GI Bill educational 
benefits.

    [The prepared statement of Walter Ochinko appears in the 
Appendix]

    Mr. Wenstrup. Thank you, Mr. Ochinko. Mr. Lyon, you are now 
recognized for five minutes.

                    STATEMENT OF JARED LYON

    Mr. Lyon. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Subcommittee, thank you for inviting Student 
Veterans of America to submit our testimony on the important 
and timely issues covered today, including the GI Bill STEM 
Extension Act of 2015, the GI Bill Oversight Act of 2016, and 
the Support for Student Veterans with Families Act.
    We cover these and additional issues in greater depth in 
our written testimony.
    Established in 2008, Student Veterans of America is the 
voice for the interests of veterans in higher education. The 
myriad of programs supporting our success, rigorous research, 
seeking ways to improve the landscape and advocacy throughout 
the Nation, we place the student veteran at the top of our 
organizational pyramid.
    To start, we would like to discuss the GI Bill STEM 
Extension Act of 2015. For most veterans hoping to enter 
science, technology, engineering, and mathematics fields, or 
STEM fields, they face the challenge that these majors often 
require more courses than they can fit into a traditional 
college schedule. The additional time that it takes for a 
veteran to complete a STEM degree easily pushes graduation 
passed the standard four years allotted for the current post 9/
11 GI Bill.
    A 2015 Georgetown University study reviewed the economic 
value of college majors in the United States. This study showed 
that individuals who completed a STEM degree earned an average 
of $65,000 a year when starting their careers, whereas non-STEM 
degree graduates earned $15,000 less annually.
    We are here today in support of H.R. 748 and propose 
feedback that would make this legislation even more cost-
effective. We estimate that the GI Bill STEM Extension Act will 
support 33,000 veteran STEM majors, enabling those student 
veterans to successfully complete their degrees without any 
additional financial burden.
    STEM majors contribute an average of $260,000 more in taxes 
than non-STEM majors over their lifetime. This increase in tax 
revenue could equate to an additional $8.6 billion in tax 
revenue, a return on investment for the American economy of $8 
for every $1 spent.
    This economic gain is in addition to the national security 
imperative to have more STEM professionals in our country, and 
we fully support the GI Bill STEM Extension Act of 2015. We 
look forward to continuing the discussion on how to improve the 
economic impact of STEM majors in the United States by 
motivating transitioning servicemembers to enter into these 
fields of study.
    On the GI Bill Oversight Act of 2016, I am pleased to note 
that we continue to work hard to protect veterans pursuing 
their higher education. Sadly, due in part to the 9010 
loophole, we continue to see predatory practices affect 
veterans at schools with the wrong priorities. I am simply 
tired of hearing student veterans tell me, ``I wish I had 
known.''
    The GI Bill Oversight Act of 2016 focuses on the right 
issues to protect student veterans from questionable schools. 
With this intent in mind, we feel that the language triggering 
an investigation should heavily weigh on an institution's 
actions that are found guilty, not institutions with ongoing 
investigations. We strongly support the intent of this 
legislation and believe this to be a critical area of 
discussion.
    Finally, we support the Student Veterans with Families Act, 
and we would like to highlight data from our annual member 
census which illustrates a significant concern among single 
parents who served in the military and are currently enrolled 
in higher education. How is it that they pay for childcare?
    Our study shows that 49 percent of current student veterans 
have indicated that childcare had a negative or extremely 
negative impact on their financial situation. Additionally, 20 
percent of student veterans indicated that their current 
childcare status had a negative impact on their personal 
academic goals as they pursue their degrees.
    An increasing number of veterans are going to school, and 
the need for childcare continues to rise. That is why we 
applaud Congresswoman Titus on the introduction of this 
legislation. We strongly support the intent of this legislation 
and propose an administrative change to effect the use of 
funds, limitations, and authorizations of appropriation 
sections. We hope to address this in further detail for 
additional consideration of this important discussion.
    We thank the Chairman, Ranking Members, and Subcommittee 
Members for your time, attention, and devotion to the cause of 
veterans and higher education. As always, we welcome your 
feedback and questions, and we look forward to continuing to 
work with this Committee to ensure the success of all 
generations of veterans through higher education. Thank you.

    [The prepared statement of Jared Lyon appears in the 
Appendix]

    Mr. Wenstrup. Thank you, Mr. Lyon. Mr. Morosky, you are now 
recognized for five minutes.

                   STATEMENT OF ALEKS MOROSKY

    Mr. Morosky. Good afternoon, Chairman Wenstrup, Ranking 
Member Takano, Members of the Subcommittee. On behalf of the 
Veterans of Foreign Wars of the United States, I want to thank 
you for the opportunity to present VFW's views on today's 
pending bills.
    Mr. Chairman, the VFW supports the GI Bill STEM Extension 
Act, which would grant an additional nine months to post 9/11 
GI Bill benefits to student veterans pursuing degrees in 
specified fields of science, technology, engineering, and math 
that require more than the standard 128 credit hours for 
completion.
    Those who graduate with STEM degrees position themselves 
for employment in increasingly high demand, good-paying jobs. 
Veterans who choose to enter these programs should be given the 
opportunity to complete them without exhausting their benefits 
before earning their degrees.
    The VFW supports the Veterans Entry to Apprenticeship Act. 
By allowing veterans to use their education benefits to enroll 
in pre-apprenticeship programs, this bill would help them build 
the necessary skills they need to enter and succeed in the 
registered apprenticeship programs of their choice.
    The HIRE Vets Act would give private sector employers 
recognition for their superior effort to recruit, employ, and 
retain veterans and provide charitable service for the 
veterans' community through the HIRE Vets Medallion Program. 
The VFW supports the HIRE Vets Act, but would like to offer two 
suggestions to improve the bill.
    First, one of the qualifications for the Medallion is that 
the employers guarantee continued employment to Guard and 
Reservists following active duty service. Under USERRA, 
employers are already required by law to preserve that 
employment. The VFW suggests that this provision be replaced 
with an employer-sponsored USERRA training program. This will 
ensure that both the supervisors and the veteran employees 
understand their rights and responsibilities under USERRA.
    Second, we suggest that the training program requirement 
for the Silver Medallion be rephrased to emphasize the program 
would provide specific training that is geared to bridge any 
gaps between a veteran's military training and the requirements 
to perform the new job. The VFW wants to thank Congressman Cook 
for his vision, and we look forward to working with him to 
improve the bill.
    The VFW supports the intent of the Support Student Veterans 
with Families Act to authorize VA to give grants to schools to 
provide childcare for student veterans, and we would like to 
offer a recommendation to strengthen it.
    The bill requires at least 75 percent of new childcare 
services funded by the grant must go to student veterans. While 
we do not see a significant harm in allowing excess services to 
be used by non-veteran students and faculty, we would object to 
any student veteran being denied services or placed on a 
waiting list behind a non-veteran under any circumstances.
    To prevent this from happening, we suggest that the bill be 
amended to include a priority of service clause for student 
veterans. With that change, the VFW would fully support the 
bill, and we look forward to working on it with Congresswoman 
Titus.
    The VFW also supports H.R. 4138, believing that when a VA 
employee games the relocation expense program for personal gain 
or unintentionally receives payments that are not authorized, 
the Secretary must have the authority to recoup those funds.
    The VFW supports the Veterans Success on Campus Act to make 
VSOC a permanent program in Title 38. Beginning as a pilot 
program on one campus in 2009, VSOC has grown to 94 campuses 
nationwide. By assigning VR&E counselors to these campuses, 
student veterans are provided with convenient access to 
education and career counseling, as well as information on VA 
health care and other benefits.
    The VFW believes VSOC greatly enhances a student veteran's 
ability to successfully transition to civilian life, and we 
strongly support codifying it as a permanent VA program.
    The VFW supports the GI Bill Oversight Act, which takes 
comprehensive steps to eliminate deceptive and misleading 
practices sometimes conducted by institutions of higher 
learning. By requiring OIG to conduct investigations on schools 
that are already under investigation by state or Federal 
agencies or are defendants in class action lawsuits or have 
been found guilty of deceptive or misleading practices, this 
bill ensures that the proper level of oversight is exercised 
over potentially bad actors.
    Veterans attending those schools would be provided with 
information on how to transfer their credits. An investigation 
would be made public as part of the GI Bill Comparison Tool. It 
would also rightly grant VA the authority to disapprove these 
courses of education and restore lost benefits for veterans who 
are enrolled and receiving benefits when the disapproval 
occurs.
    The VFW supports most provisions of the draft bill that 
makes several changes to the way the GI Bill is administered. 
These include pro-rating post 9/11 GI Bill benefits for 
licensing and credentialing exams, extending authorization of 
the Veterans Advisory Committee on Education, training for 
school certifying officials, and clarifying the use of 
reporting fees by schools.
    We do, however, oppose the provision to extend the rounding 
down of the percentage increase VA may pay in educational 
assistance, as this could potentially require veterans to spend 
more money out of their own pockets to pay for the education 
benefits they have already earned.
    Finally, the VFW supports the draft bill that would require 
research on how the Transition Assistance Program addresses the 
unique needs, challenges, and post-military service aspirations 
of women veterans, veterans with disabilities, Native American 
veterans, and other groups that the Secretary considers 
appropriate. We believe this data could be useful in the 
continuing effort to ensure that the TAP curriculum is as 
effective as possible for all transitioning veterans.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions you or the other Members of the Committee 
may have.

    [The prepared statement of Aleks Morosky appears in the 
Appendix]

    Mr. Wenstrup. Well, I want to thank all of you for your 
valuable testimonies here today. We have been called to vote, 
and we have agreed to submit our questions for the record for 
you. But I do appreciate the input that you have provided for 
us today on all these issues. It is greatly appreciated. So I 
do want to thank you for you taking the time to come and share 
your views. It is important to the legislative process that we 
hear from you and appreciate your feedback.
    I would also like to announce that the Subcommittee will 
tentatively be holding a markup on some or all of these bills 
on April 28th. At this time, I ask unanimous consent that the 
written statement of the Office of the Inspector General of the 
U.S. Department of Veterans Affairs be included in the hearing 
record. Without objection, so ordered.
    Finally, I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and include 
extraneous material on any of the bills under consideration 
this afternoon. Without objection, so ordered.
    This hearing is now adjourned. Thank you.

    [Whereupon, at 3:19 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Curtis L. Coy
    Good afternoon, Mr. Chairman, Ranking Member Takano, and other 
Members of the Subcommittee. Thank you for the opportunity to be here 
today to discuss legislation pertaining to the Department of Veterans 
Affairs' (VA) programs, including the following: H.R. 748, H.R. 2551, 
H.R. 3419, H.R. 4138, a draft bill to make certain improvements in the 
laws administered by the Secretary of Veterans Affairs relating to 
educational assistance, a draft bill entitled ``GI Bill Oversight Act 
of 2016'', and a draft bill entitled ``Veterans Success on Campus Act 
of 2016.'' There are a couple of bills under discussion today which 
would affect programs or laws administered by the Department of Labor 
(DOL). Respectfully, we defer to that Department's views on H.R. 3286 
and a bill to direct the Secretary of Labor to carry out a research 
program to evaluate the effectiveness of the Transition Assistance 
Program in addressing needs of certain minority Veterans. Accompanying 
me this afternoon is Ms. Carin Otero, Associate Deputy Assistant 
Secretary, HR Policy and Planning, for the office of Human Resources 
and Administration.
                                H.R. 748
    H.R. 748 would add a new section 3320 of chapter 33 of title 38, 
United Stated Code, which would authorize VA to provide up to nine 
months of additional Post-9/11 GI Bill benefits to an individual who 
has used all of his or her Post-9/11 GI Bill educational assistance. An 
eligible individual is an individual who:

    <bullet>  Is or was entitled to educational assistance under 
section 3311 of title 38;
    <bullet>  Used all of the educational assistance to which the 
individual is entitled; and (A) Is enrolled in a program of education 
leading to a post-secondary degree that requires more than the standard 
128 semester (or 192 quarter) credit hours for completion in biological 
or biomedical science; physical science; science technologies or 
technicians; computer and information science and support services; 
mathematics or statistics; engineering; engineering technologies or an 
engineering-related field; a health profession or related program; or a 
medical residency program; or (B) has earned a post-secondary degree in 
an above-referenced field and is enrolled in a program of education 
leading to a teaching certification.

    VA supports the intent of the proposed legislation, subject to the 
availability of funds. However, VA has concerns regarding the phrases 
``is or was entitled to educational assistance'' and ``is enrolled in a 
program of education'' from the perspective of implementation and 
recommends that the draft bill be amended to clarify these phrases. As 
currently drafted, individuals who have been enrolled in a science, 
technology, engineering, mathematics (STEM) program of education for 
only one day, week, or month at the point they exhaust the normal 36 
months of entitlement would be eligible for the additional nine months 
of educational assistance, even though that entitlement would not allow 
them to complete the STEM program. Additionally, it could also be 
interpreted to mean that individuals who enroll in a STEM program for 
the first time after they have exhausted all 36 months of basic 
entitlement in a non-STEM program would be eligible for the additional 
entitlement. Provision of educational assistance in these circumstances 
would not serve the purpose of the legislation.
    To implement this legislation, VA would need to make modifications 
to its existing information technology (IT) systems. Specifically, it 
would need to make modifications to the VA Online Certification of 
Enrollment (VA-ONCE) and the Long Term Solution (LTS) in order to 
verify eligibility and allow for the award of additional months of 
educational assistance. VA estimates that it would require one year 
from the date of enactment to make the IT system changes necessary to 
implement the proposed legislation.
    We estimate enactment of this legislation would result in benefit 
costs of $94.2 million in fiscal year (FY) 2017, $515.6 million over 
five years, and $1.2 billion over 10 years. We estimate the information 
technology (IT) cost to be $3 million, which includes the design, code 
development, testing, and deployment of the new functionality in 
existing IT systems. We do not estimate any administrative costs 
associated with this proposed legislation.
                               H.R. 2551
    H.R. 2551 would amend chapter 36 of title 38, United States Code, 
by adding a new subsection 3687A to authorize VA to treat a pre-
apprenticeship program in the same manner as an apprenticeship program 
for the purpose of providing educational assistance. A pre-
apprenticeship program may be covered under the proposed legislation if 
the program is recognized under or compliant with any standards for a 
postsecondary pre-apprenticeship program required by the State in which 
the program is located, or, in the case of a program for which a State 
does not require any such standards, if the curriculum of the program 
is approved by a sponsor and the sponsor certifies to VA that the 
program will prepare an individual with skills and competencies needed 
to enroll in a registered apprenticeship program. The program must also 
maintain conduct and attendance policies in accordance with a sponsor 
if the State does not require such standards. The term ``sponsor'' 
would be defined to mean an entity that formally supports the pre-
apprenticeship program, including a Registered Apprenticeship program; 
a department or agency of a State or local government; an institution 
of higher learning; or any other public, private, or nonprofit entity 
that VA determines to be a sponsor for purposes of this section. VA and 
the Department of Labor will work collaboratively to ensure consistency 
in the definitions.
    A ``covered individual'' for purposes of this bill would be an 
individual who is entitled to educational assistance and seeking to use 
such assistance for a program of apprenticeship. A covered individual 
enrolled in a pre-apprenticeship program would receive educational 
assistance equal to the amount and kind received by an individual in an 
apprenticeship program. However, if the covered individual is not paid 
as part of the pre-apprenticeship program, he or she would receive a 
monthly housing allowance (MHA). The MHA would be equal to the monthly 
amount of the basic allowance for housing payable under section 403 of 
title 37 for a member with dependents in pay grade E-5 residing in the 
military housing area that encompasses all or the majority portion of 
the zip code area of the pre-apprenticeship program. The covered 
individual's entitlement would be charged at a rate equal to the rate 
charged for an apprenticeship program.
    The proposed legislation would apply to an individual who enrolls 
in a program of pre-apprenticeship beginning on or after the date of 
enactment of the bill.
    VA generally supports the intent of the proposed legislation, but 
has concerns with implementation of this bill.
    First, the proposed bill would place the onus of certifying 
programs as ``pre-apprenticeship'' on either the State in which the 
program is located or on VA. However, the bill provides no guidance 
regarding what standards should be used by either entity to make such 
determinations. Additionally, VA would be responsible for approving 
programs in States that do not require any standards for pre-
apprenticeship programs. Similarly, the bill does not provide VA with 
adequate standards for approving such programs. Second, because the 
proposed legislation would authorize pre-apprenticeship programs for 
all educational assistance programs, it poses significant problems with 
regard to the MHA requirement in the proposed section 3687A(c). This 
bill would provide that if the enrollee is not paid as part of the pre-
apprenticeship program, ``each monthly allowance for housing payable'' 
to the enrollee shall be an amount equal to the basic housing allowance 
of an E-5 with dependents in the same zip code as the pre-
apprenticeship program. This requirement would cause confusion since 
only chapter 33 pays a ``monthly allowance for housing'' based on the 
Department of Defense's basic allowance for housing. All other 
educational benefit chapters (e.g., chapter 30) provide a monthly 
training assistance allowance. Therefore, the intent of the proposed 
legislation is unclear as it targets ``each monthly allowance for 
housing payable to the individual under such assistance.'' An 
individual enrolled in a pre-apprenticeship program may receive 
markedly more in benefit payments than if he/she was enrolled in a 
degree or non-degree program under chapter 30, 32, or 35 of title 38, 
or chapter 1606 of title 10. This inequity could negatively impact 
other types of training. VA recommends the proposal be amended to 
provide payment rates for pre-apprenticeships under chapter 30, 32, 35, 
or 1606 that are consistent with the amounts payable for 
apprenticeships under those benefit programs.
    We estimate enactment of this legislation would result in benefit 
costs of $15.8 million in FY 2017, $83.4 million over five years, and 
$184.6 million over 10 years. Additionally, we estimate the IT cost to 
be $5 million, which includes the design, code development, testing, 
and deployment of the new functionality in existing IT systems. We do 
not estimate any administrative costs associated with this proposed 
legislation.
                               H.R. 3419
    H.R. 3419 would authorize the Secretary of Veterans Affairs to make 
grants to eligible educational institutions to provide childcare 
services to students on campus.
    Section 2(a) would amend chapter 36 of title 38, United States 
Code, to add a new section 3699. The new section 3699 would have five 
parts:
    1. Section 3699(a) would state that the purpose of the grant is to 
provide childcare services on the campus of the educational institution 
to students enrolled in courses of education offered by the educational 
institution.
    2. Section 3699(b) would provide the criteria for determining if 
the educational institution would be eligible for the grant. 
Specifically, the school would have to (1) offer a course of education 
that is approved as provided in 38 U.S.C. chapters 34, 35 and 36 by the 
State Approving Agency where the educational institution is located, 
and (2) submit to VA an application that includes the information and 
assurances VA may require.
    3. Section 3699(c) would outline how the educational institution 
must use the funds. Specifically under paragraph (1)(A), the 
institution would establish or expand a childcare center on the campus 
of the educational institution, or under paragraph (1)(B), the 
institution would pay the costs of providing childcare services to 
students enrolled in courses of education offered by the educational 
institution at a childcare center located on the campus of the 
educational institution. Additionally, paragraph (2) would require that 
at least 75 percent of the new childcare services funded by the grant 
be provided to students who are Veterans.
    4. Section 3699(d) would limit the number of grants to 50 for FY 
2016.
    5. Section 3699(e) would state that there is authorized to be 
appropriated such sums as may be necessary to carry out this section.
    VA supports the goal of providing affordable childcare to those 
enrolled in higher education, but cannot support this bill as written 
for a number of reasons.
    VA has concerns with the potential establishment of a childcare 
center due to the lifecycle costs involved to sustain it, as well as 
the management challenges associated with the variety of State and 
local laws and licensing requirements. Additionally, because the 
provisions of this draft legislation are not clearly defined, VA has 
multiple concerns as outlined below:

    <bullet>  There are not basic requirements for either the childcare 
services that will be provided or the licensing and staffing of the 
center.
    <bullet>  Childcare services would be available to ``students 
enrolled in courses of education offered by the educational 
institution'', which implies that any student, including those who are 
not Veterans, could receive these services. The bill only requires that 
``at least 75 percent'' of such services be granted to students who are 
Veterans. Additionally, there are no other specific eligibility 
criteria for Veteran students who would receive these childcare 
services.
    <bullet>  The bill would prescribe no limit to childcare services 
based on the age of the child or economic indicators. Also, the bill 
would not require a link between the times the services are available 
to times when the student is attending class or engaged in related 
activities.
    <bullet>  VA could determine the required information and 
assurances needed to apply for the grant, but the bill would provide no 
criteria for determining the basic requirements of who would be 
eligible to apply for a grant, how the grants would be awarded, or 
limits on the amount of each grant.
    <bullet>  Given the administrative duties that would be required to 
establish the framework necessary to develop and implement such a grant 
program and the fact that almost six months of FY 2016 have already 
passed, it would not be possible for VA to provide 50 grants during FY 
2016. Establishing grant criteria and the process of administering a 
grant generally requires VA to engage in rulemaking.

    VA is unable to determine the costs of enactment of this proposal. 
There are numerous factors that can affect the cost of childcare, such 
as the size of the childcare facility, the number of children, the age 
of the children, the duration and array of childcare services offered 
at the facility, the location of the facility, etc.
Draft Bill - ``To make certain improvements in the laws administered by 
 the Secretary of Veterans Affairs relating to educational assistance''
    Section 2 of the proposed legislation would amend 38 U.S.C. 
Sec. Sec.  3315(c) and 3315A to allow for the proration of entitlement 
charges for licensing and certification examinations and national tests 
under the Post-9/11 GI Bill. Specifically, the charge against an 
individual's entitlement for payment for licensing and certification 
examinations and national tests would be prorated based on the actual 
amount of the fee charged for the test. Section 2 would also add that 
an individual entitled to educational assistance under chapter 33 would 
be entitled to educational assistance for ``[a] national test that 
evaluates prior learning and knowledge and provides an opportunity for 
course credit at an institution of higher learning as so described.''
    The amendments made by this section would apply to a test taken 
more than 90 days after the date of the enactment of this legislation.
    VA supports section 2. This would benefit Post-9/11 GI Bill 
beneficiaries by reducing the negative impact of exam/test 
reimbursement on remaining benefit entitlement and increasing the 
months of training available for the beneficiaries, thus expanding 
educational opportunities.
    Currently, under sections 3315 and 3315A, an individual is charged 
entitlement for the reimbursement of fees associated with a licensing 
or certification exam, or a national test, in whole months. More 
specifically, VA charges an individual one month of entitlement for 
each $1,759.08 reimbursed for the academic year beginning on August 1, 
2015, rounded to the nearest whole month. Regardless of the cost of the 
test, be it $50 or $1,600, the Veteran is charged one full month of 
entitlement.
    As noted in its FY 2016 legislative proposal, VA believes the law 
should be amended to charge entitlement for reimbursement of VA 
approved exams at a prorated number of days of entitlement based on the 
ratio of the cost of the test to the statutory amount. However, it 
should be noted that, as this legislation is currently written, the 
provisions would no longer specify the amount of benefit payment 
equaling one month of entitlement. VA suggests that the draft language 
be further amended in order to retain that amount. We would be happy to 
provide technical assistance to accomplish this.
    The Department believes that mandatory costs associated with this 
section of the legislation would be insignificant. Also, there would be 
no administrative costs associated with this section of the 
legislation. However, we do estimate the IT cost to be $500,000 in 
order to make the system adjustments necessary to prorate the 
entitlement charge calculations in the LTS.
    Section 3 would amend 38 U.S.C. Sec. Sec.  3015(h)(2) and 3564(b) 
to provide that an increase in the amount of educational assistance 
after FY 2013 and before FY 2025 would be rounded down to the next 
lower whole dollar amount and that any increase after FY 2024 would be 
rounded to the nearest whole dollar amount.
    VA supports section 3. Public Law 108-183 (Veterans Benefits Act of 
2003) extended a previous authority in title 38, United States Code, to 
authorize VA to round down the yearly cost-of-living adjustments for 
basic educational assistance to the next lower whole dollar amount 
through FY 2013. Following the expiration of that authority on 
September 30, 2013, the yearly increases in educational assistance 
under the Montgomery GI Bill-Active Duty (MGIB-AD), the Reserve 
Educational Assistance Program, and the Dependents Educational 
Assistance Program are rounded to the nearest whole dollar amount.
    This proposed legislation would reinstitute through FY 2024 the 
authority to round down to the next lower whole dollar amount to 
generate cost savings. For example, the current monthly rate under the 
MGIB-AD is $1,789. If the monthly rate for educational assistance 
increased based on the Consumer Price Index and National Center for 
Education Statistics by 5.4 percent ($96.61) under current law, the 
MGIB-AD monthly rate would be rounded to the nearest whole dollar--
$1,886, rather than $1,885 under the proposed legislation.
    We estimate enactment of section 3 would result in benefit savings 
of $872,000 in FY 2017, $7.4 million over five years, and $25 million 
over 10 years. This cost estimate reflects the most current estimates 
for the cost of living adjustments (COLA) in out-years. A slight change 
in the COLA in a given year can dramatically affect these estimated 
savings.
    Section 4 would amend 38 U.S.C. Sec.  3692(c) to re-authorize the 
Veterans' Advisory Committee on Education (VACOE) through December 31, 
2021. VACOE provides advice to the Secretary on the administration of 
education and training programs for Veterans and Servicemembers, 
members of the National Guard and Reserve Components, and dependents of 
Veterans under chapters 30, 32, 33, and 35 of title 38, United States 
Code, and chapter 1606 of title 10, United States Code. Section 201 of 
Public Law 114-58 (the Department of Veterans Affairs Expiring 
Authorities Act of 2015) extended VACOE statutory authority through 
December 31, 2016.
    VA supports section 4. If reauthorized, the Secretary would be able 
to continue to receive recommendations and seek advice from VACOE in 
order to enhance VA's educational assistance programs.
    The administrative costs associated with enactment of section 4 
would be insignificant.
    Section 5 would authorize VA to provide training requirements for 
school certifying officials employed by educational institutions that 
offer courses of education approved under chapter 36 of title 38, 
United States Code. If an educational institution does not ensure that 
a school certifying official meets the training requirements, VA may 
disapprove any course of education offered by the educational 
institution. A ``school certifying official'' is defined as an employee 
of an educational institution with primary responsibility for 
certifying Veteran enrollment at the educational institution.
    VA supports legislation that would require school certifying 
officials to meet certain training requirements as determined by VA. VA 
currently provides guidance and training opportunities for school 
certifying officials via webinars, the School Certifying Official 
Handbook, and on the GI Bill website. Currently, VA does not have the 
authority to require school certifying officials to complete this 
training or to disapprove educational programs if the training is not 
completed. The proposed legislation would provide VA with this 
authority. However, VA suggests that the proposed requirements be 
formally codified in chapter 36 of title 38, United States Code, and 
would be happy to provide technical assistance to accomplish this.
    There would be no benefit or administrative costs or savings 
associated with enactment of section 5.
    Section 6 would amend subsection (i) of section 3313 of title 38, 
United States Code, to authorize VA to reduce the amount of the monthly 
housing stipend on a pro rata basis if an individual reduces the number 
of course hours after the beginning of an academic period. 
Specifically, if VA determines that an individual received a monthly 
housing stipend at the beginning of a month and then reduced the number 
of course hours and was not entitled to the full amount of the payment 
received for that month, VA may reduce the amount payable for the 
subsequent month by an amount equal to the amount of the overpayment.
    The amendments made by this section would apply to a month that 
begins on or after August 1, 2017.
    VA does not support section 6.
    In many cases, the monthly housing stipend is the sole source of 
funds that students use to pay for housing, food, utilities, and other 
basic necessities while attending school. Authorizing VA to offset an 
individual's monthly housing allowance the month after the individual 
is overpaid due to a reduction in his or her course hours could create 
a significant financial burden on students and their families. For 
example, an individual that relies on the monthly housing stipend to 
pay rent each month would be faced with a shortage of funding in order 
to maintain his or her housing while still being enrolled in school.
    VA prefers to focus on strategies to minimize the frequency and 
magnitude of overpayments, rather than more aggressively recouping 
overpayments in a manner that may be detrimental to Veterans and 
eligible dependents. VA is already taking steps to reduce overpayments 
resulting from enrollment changes. Specifically, a plan has been 
developed to require beneficiaries to verify their enrollment status 
each month before VA releases the monthly housing payment, which is 
consistent with other education benefit programs. VA plans to add this 
functionality in its IT systems, subject to the availability of IT 
development funds.
    There would be no benefit or administrative costs or savings 
associated with this section. We estimate the IT cost associated with 
enactment of this section to be $2 million, which includes the design, 
code development, testing, and deployment of the new functionality in 
existing IT systems.
    Section 7 would amend section 3684(c) of title 38, United States 
Code, to place a limitation on the use of reporting fees payable to 
educational institutions and joint apprenticeship training committees. 
Currently, section 3684(c) of title 38, United States Code, states that 
VA shall pay an annual reporting fee to any educational institution 
that furnishes education or training and submits reports or 
certifications to VA. The reporting fee is computed for each calendar 
year by multiplying $12 by the number of eligible individuals enrolled 
in VA's education and vocational rehabilitation and employment 
programs. In addition, VA also provides $15 for an eligible individual 
whose educational assistance payment is sent to the school for 
temporary custody and delivery at the time of registration. Section 7 
would prohibit an educational institution or joint apprenticeship 
training committee from using or merging reporting fees from VA with 
the amounts available for the general fund of the educational 
institution or joint apprenticeship training committee.
    VA does not support this proposed change that would prohibit 
schools from using or merging reporting fees with their general funds. 
Educational institutions are already required to use reporting fees 
solely for making certifications or otherwise supporting programs for 
Veterans, and it is possible for VA to verify compliance with this 
requirement without the establishment of a separate account for 
reporting fees. Consequently, VA views the proposed change as unduly 
cumbersome for educational institutions and joint apprenticeship 
training committees.
    In addition, VA notes that under Public Law 113-175, Sec.  406 the 
reporting fees were decreased to $9 and $13 for the one-year period 
beginning September 26, 2014. Subsequently, Public Law 114-58, Sec.  
410 extended those amounts for one additional year, until September 26, 
2016. Based on VA's interpretation, those rates would automatically 
increase to $12 and $15 if the proposed change was to be enacted prior 
to September 26, 2016. VA is unsure whether or not this was intended.
    There would be no benefit or administrative costs or savings 
associated with enactment of this section.
                               H.R. 4138
    H.R. 4138 would authorize the Secretary of Veterans Affairs to 
recoup relocation expenses paid to or on behalf of employees of VA. 
Under this bill, the Secretary may direct an employee to repay the 
amount, or a portion of the amount, paid to or on behalf of the 
employee under title 5 for relocation expenses, if the Secretary 
determines such repayment appropriate under regulations to be 
prescribed by the Secretary and the employee is provided prior notice 
and an opportunity for a hearing. The VA has several concerns about 
H.R. 4138 and opposes this bill for the reasons expressed below.
    The authority that would be provided to the Secretary under H.R. 
4138 already exists under current law. Under the Federal Claims 
Collection Act, the Secretary may collect a debt owed by an employee if 
an employee has been paid incorrectly. H.R. 4138 and current law would 
not, however, allow the Secretary to collect relocation expenses, where 
such expenses are appropriately paid by VA to or on behalf of an 
employee and there is no evidence of fraud or wrongdoing on the part of 
the employee in applying for or accepting the relocation expenses.
    VA is already challenged to recruit and retain highly-qualified 
staff and subject matter experts necessary to transform the Agency. 
Enactment of this legislation would allow the Agency to recoup 
relocation expenses paid directly to employees, as well as payments 
made to vendors such as relocation companies. Consequently, employees 
could be responsible for paying back expenses, which could pose a 
significant financial burden on affected employees. While this bill 
would only address the repayment of relocation expenses, it is another 
in a number of separate personnel policy bills aimed solely at the VA, 
creating a disparity in the treatment of one group of career civil 
servants. Prior legislation established an abbreviated review process 
before an administrative judge for certain VA employees who are subject 
to adverse action. The implementation of provisions that reduce or 
remove important rights, protections, and incentives for VA employees, 
which are available to the majority of Federal employees in other 
agencies, compounds the challenges facing the Agency by making 
employment with VA significantly less attractive.
    Subsection 1(c) of H.R. 4138 states that the authority provided 
under H.R. 4138 would apply ``to or on behalf of'' a VA employee ``for 
relocation expenses before, on, or after the date of the enactment of 
this Act.'' VA has a number of legal concerns with this subsection. 
First, the legislation would authorize the Secretary recoup relocation 
expenses if ``the Secretary determines such repayment appropriate 
pursuant to regulations'' prescribed under an open-ended provision that 
provides no guidance as to the types of relocation expenses that can be 
recouped and the reasons for recoupment. Even under the lenient 
``intelligible principle'' standard for delegations of legislative 
authority, see Whitman v. Am. Trucking Ass'ns, 531 U.S. 457, 472 
(2001), this authorization raises non-delegation doctrine concerns.
    Second, authorizing the Secretary to recoup relocation expenses 
paid to or on behalf of any VA employee even before the promulgation of 
the Secretary's regulations may have an impermissible retroactive 
effect. A bill has a ``retroactive effect'' if it increases an 
employee's liability for conduct that preceded the enactment of the 
bill. See Landgraf v. USI Film Products., 511 U.S. 244, 280 (1994) (a 
bill has a ``retroactive effect'' if it ``increases a party's liability 
for past conduct''). Under the bill, the Secretary could promulgate 
regulations that would require an employee to repay relocation expenses 
based on conduct that preceded the enactment of the bill. Because the 
employee was not aware that he or she would have to repay the 
relocation expenses at the time of the conduct, the bill may have a 
``retroactive effect'' and may implicate the employees' due process 
rights to fair notice. See BMW of North America, Inc. v. Gore, 517 U.S. 
559, 574 (1996). Recouping the relocation expenses based on new 
regulations may also be considered a taking, entitling the employee to 
``just compensation'' for the amount of repayment.
    VA believes strongly that Federal employees must be held 
accountable and supports taking action to collect debts owed by 
employees when employees have been paid incorrectly and has established 
strong internal policy implementing the Federal Claims Collection Act 
in VA Financial Policy, Volume XII -Chapter 4, Employee Debts, dated 
May 2010. However, because current law allows the Secretary to collect 
such debts, new legislation is not required to accomplish this goal. 
Establishing a new bill aimed solely at VA employees would be 
counterproductive and could have unintended consequences. The vague 
language in the bill that allows for an employee to be directed to 
repay relocation expenses when it is determined that such repayments 
are ``appropriate,'' could make employment in VA significantly less 
attractive than in other Federal agencies or in the private sector. 
This may discourage outstanding VA employees from applying for 
promotion or reassignment opportunities with the Agency and impair VA's 
ability to recruit top talent, including Veterans.
               Draft Bill - GI Bill Oversight Act of 2016
    Section 2 requires VA's Office of Inspector General (OIG) to 
conduct investigations into institutions of higher learning (IHLs) that 
are defendants in class action lawsuits for deceptive or misleading 
practices, are being investigated by any Federal or State agency for 
deceptive or misleading practices, or have been found guilty by any 
Federal or State agency of deceptive or misleading practices. VBA 
defers to VA OIG regarding the requirements and position of Section 2 
of this bill.
    Section 3 of this bill requires VBA Education Service to disapprove 
courses of education at an IHL found guilty by OIG of deceptive or 
misleading practices. In general, the Department supports the intent 
behind the legislation.
          Draft Bill - Veterans Success on Campus Act of 2016
    Section 2(a) of this bill proposes to amend chapter 36 of title 38, 
United States Code, to add a new section 3697B. The title of this new 
section would be ``On-campus educational and vocational counseling.'' 
The new 38 U.S.C. Sec.  3697B would have three sections:
    1. Section 3697B(a) states the Secretary shall provide educational 
and vocational counseling services for Veterans at locations on the 
campuses of IHLs, as selected by VA. These services shall be provided 
by VA employees who provide such services under 38 U.S.C. Sec.  3697A.
    2. Section 3697B(b) provides the criteria for the selection of IHLs 
to participate in these services, specifically (a) the IHL must provide 
appropriate space on campus where counseling services can be provided, 
and (b) VA will seek to select locations where the maximum number of 
Veterans would have access to these services.
    3. Section 3697B(c) provides guidance on reporting requirements. 
This section states that no later than 180 days after enactment, and 
each year thereafter, VA will submit a report to Congress. This report 
must contain the following: the average ratio of counselors providing 
these services to Veterans who receive these services at each location; 
a description of the services provided; recommendations for improving 
the provision of these services; and any other matters VA determines 
appropriate.
    While VA already provides the VetSuccess on Campus (VSOC) program 
under the Secretary's current authority at 38 U.S.C. Sec. Sec.  3115 
and 3116, we are supportive of legislation to codify the existing 
program. VSOC aims to help Veterans, Servicemembers, and their 
qualified dependents succeed and thrive through a coordinated delivery 
of on-campus benefits assistance and counseling, leading to completion 
of their education and preparing them to enter the labor market in 
viable careers.
    VA has one concern with the language in the draft legislation, as 
it refers to the population served. Educational and vocational 
counseling services, as outlined in 38 U.S.C. Sec. Sec.  3697 and 
3697A, are available to Servicemembers, Veterans, and, in some 
instances, their eligible dependents. VA recommends that Servicemembers 
and dependents be added to Section 2(a) of the draft legislation.
    There would be no benefit or administrative costs associated with 
enactment of this legislation.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be pleased to respond 
to questions you or the other Members of the Subcommittee may have.

                                 <F-dash>
                Prepared Statement of Sam Shellenberger
                              Introduction
    Good afternoon, Chairman Wenstrup, Ranking Member Takano, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to participate in today's hearing. As Deputy Assistant 
Secretary for Operations and Management of the Veterans' Employment and 
Training Service (VETS) at the Department of Labor (DOL or Department), 
I appreciate the opportunity to discuss the Department's views on 
pending legislation and proposals impacting veterans' employment. As a 
former surface warfare officer in the United States Navy, I take DOL's 
mission to help veterans, transitioning service members, and military 
families personally, and I thank the Committee for all of your work on 
behalf of my fellow veterans. While the employment situation for 
veterans continues to improve-last month marked 23 of 24 months with 
veterans' unemployment being lower than nonveteran unemployment-DOL 
will not rest as long as any veteran needs assistance finding 
meaningful civilian employment.
    Although this hearing is focused on several bills under 
consideration by the Subcommittee, I will limit my remarks to the 
proposed legislation that has a direct impact on the programs 
administered by DOL, specifically H.R. 2551, ``Veterans' Entry to 
Apprenticeship Act,'' H.R. 3286, ``Honoring Investments in Recruiting 
and Employing American Military Veterans Act of 2015'' or the ``HIRE 
Vets Act,'' and a draft bill to ``direct the Secretary of Labor to 
carry out a research program to evaluate the effectiveness of 
Transition Assistance Program in addressing needs of certain minority 
veterans.''
         H.R. 2551 - ``Veterans' Entry to Apprenticeship Act''
    H.R. 2551, the ``Veterans' Entry to Apprenticeship Act,'' would 
allow covered veterans to utilize their education benefits for pre-
apprenticeship programs. These education benefits are the same as if 
covered veterans were enrolled in a registered apprenticeship program. 
The administration of the provisions of this bill would fall under the 
VA, and therefore, the Department will defer to that agency for 
specific concerns related to the legislation overall.
    However, the Department reiterates its support for registered 
apprenticeship programs as a proven pipeline for veterans to meaningful 
civilian careers. The Department of Defense's SkillBridge program has 
yielded valuable results by allowing transitioning service members to 
enter that pipeline earlier by bringing civilian apprenticeship 
programs onto military installations. Pre-apprenticeship programs-when 
properly structured-represent an excellent opportunity to expand the 
aperture of apprenticeship pipelines for our veterans.
    Pre-apprenticeship services and programs are designed to prepare 
individuals to enter and succeed in Registered Apprenticeship programs. 
Pre-apprenticeship programs with a documented partnership with at least 
one Registered Apprenticeship program sponsor helps expand the 
participant's career pathway opportunities with industry-based training 
coupled with classroom instruction. Quality pre-apprenticeship programs 
contribute to the development of a diverse and skilled workforce by 
preparing participants to meet the basic qualifications for entry into 
one or more Registered Apprenticeship programs. Through a variety of 
unique designs and approaches, pre-apprenticeship programs can be 
adapted to meet the needs of differing populations being trained, the 
various employers and sponsors they serve, and specific opportunities 
within the local labor market.
H.R. 3286 - ``Honoring Investments in Recruiting and Employing American 
        Military Veterans Act of 2015'' or the ``HIRE Vets Act''
    H. R. 3286, the ``Honoring Investments in Recruiting and Employing 
American Military Veterans Act of 2015'' or the ``HIRE Vets Act,'' 
would attempt ``to encourage effective, voluntary private sector 
investments to recruit, employ, and retain men and women who have 
served in the United States military, with annual presidential awards'' 
recognizing such investments. DOL applauds the intent of this bill and 
all efforts to ensure that all of our veterans find civilian employment 
following separation from the military. However, we would like to note 
some concerns regarding our ability to successfully implement the 
program as currently drafted. Specifically:

    1.The HIRE Vets Medallion Award Fund contemplated in the bill is 
not self-executing, so DOL will not have access to the fees in the fund 
unless and until Congress appropriates those fees to the agency. If 
those fees are not appropriated, it is unclear whether any existing 
VETS appropriation could be used to fund the HIRE Vets Medallion 
Program. Additionally, section 5 of the bill appears to set up a system 
where the entire funding for the program (after the first year) is paid 
for out of the fees collected under section 5(a). Thus, if VETS is able 
to identify another appropriation which is available for the program 
costs, DOL may not be able to use those funds to supplement the amount 
in the HIRE Vets Medallion Award Fund without additional action by 
Congress. Finally, it is difficult to determine a ``reasonable fee'' 
that employers would contribute under section 5(a) that would yield 
enough resources to allow VETS to fulfill the many requirements of the 
bill.
    2.Expanding DOL's capability to meet the existing criteria would 
require additional staff in order to ``verify all information provided 
in the applications, to the extent that such information is relevant in 
determining'' whether applicants should receive a HIRE Vets Medallion 
and/or what medallion they should receive. Some examples of information 
that DOL would need additional staff to verify are: the entered and 
retained employment rates of veteran employees at the Silver, Gold, and 
Platinum levels; the success in coaching, mentoring, and leadership 
programs at the Gold and Platinum levels; and the Guard and Reserve 
employee compensation and tuition assistance programs at the Platinum 
level. Either these criteria would need to be modified or eliminated or 
DOL would need to significantly increase the number of fulltime 
employees at VETS in order to carry out the program.
    If the criteria instead were limited to measuring only entered and 
retained employment rates, there may be ways to leverage existing 
federal and state databases to confirm entered and retained veteran 
employment without adding a prohibitive number of new fulltime 
employees at VETS, provided that VETS is given authority to accesses 
those databases for this purpose. Many private sector organizations and 
publications, such as the U.S. Chamber of Commerce Foundation's Hiring 
Our Heroes program Annual Hiring Our Heroes awards, recognize employers 
and individuals that have demonstrated leadership in addressing the 
challenges faced by veterans, transitioning service members, and 
military spouses in their search for meaningful employment.
    Limiting the initial scope of the program to focus on Platinum 
level employers in the first year might allow DOL to gauge interest in 
the program, and reduce the amount of funding needed to initially stand 
up the program. A smaller initial HIRE Vets Medallion program would 
presumably be closer in scope to the recognition program of DOD's 
Employer Support of the Guard and Reserve (ESGR) office.
    3.The Department of Justice has raised constitutional concerns 
under the First Amendment with section 4(b), which prohibits displaying 
the medallion when the ``employer did not receive such medallion 
through the HIRE Vets Medallion Program,'' or ``after the end of the 
calendar year following the calendar year in which such medallion was 
issued to such employer through the HIRE Vets Medallion Program.'' DOJ 
suggests that the prohibitions in section 4(b) should be revised to 
require a connection to commercial activity and a false or misleading 
effect and can provide technical assistance to this effect.
    4.Finally, VETS also has concerns with the regulatory timeline 
provided for in the legislation.

    With these concerns in mind, we recommend the Subcommittee consider 
refining the specifics of the HIRE Vets Medallion program to match the 
capabilities of DOL or enhancing the capabilities of DOL to match the 
specifics of the proposed program. In order to pare down the HIRE Vets 
Medallion program to DOL's existing capabilities, the bill could (1) 
allow shifting the review of applications from the national DOL office 
to a third party verifier while providing additional funding for this 
new function, (2) reduce the number of medallions to be issued by 
eliminating the bronze level award which requires only hiring one 
veteran, complying with existing USERRA regulations, and providing 
charitable resources in support of veteran support organizations, and/
or (3) eliminate some of the criteria for the Silver, Gold, and 
Platinum levels, and/or (4) require self-attestation instead of 
government verification of the information used to make HIRE Vets 
Medallion award decisions. Some of these changes were included in the 
Senate companion, and we would encourage the Subcommittee to similarly 
consider their inclusion.
Draft bill - ``To direct the Secretary of Labor to carry out a research 
program to evaluate the effectiveness of Transition Assistance Program 
          in addressing needs of certain minority veterans.''
    This draft bill would direct the Secretary of Labor, in 
collaboration with the Secretary of Veterans Affairs and the Secretary 
of Defense, to carry out a research program to evaluate the 
effectiveness of the Transition Assistance Program in addressing the 
differentiated needs, challenges and post-military service aspirations 
of women veterans, veterans with disabilities, Native American veterans 
and other groups of minority veterans identified by the Secretaries.
    The Transition Assistance Program (TAP) was signed into law as part 
of the National Defense Authorization Act of 1991. For approximately 
twenty years the program was evaluated largely through output measures 
of attendance in the different sections of TAP, including military 
services pre-separation counselling, the VA benefits briefings, and the 
DOL Employment Workshop (DOLEW). This performance evaluation approach 
to TAP changed with the passage of the VOW to Hire Heroes Act of 2011 
and the convening of the White House Veterans Employment Initiative 
(VEI) Task Force in late 2011. The VEI Task Force not only redesigned 
the overall TAP program, but also created the TAP Performance 
Management Working Group to develop and coordinate a comprehensive 
evaluation strategy.
    In conjunction with the VEI Task Force, VETS redesigned the DOLEW 
and implemented the new curriculum in FY 2013. Since that redesign, 
VETS has delivered the DOLEW to over 600,000 transitioning service 
members and spouses. The DOLEW consistently rates very high in customer 
satisfaction. In the latest participant survey, 92 percent of 
respondents said the DOLEW enhanced their confidence in transition 
planning, and 94 percent said they will use what they learned in the 
DOLEW in their transition planning. On April 1, 2016, VETS fielded a 
revised DOLEW curriculum with changes based on customer satisfaction 
input and comprehensive feedback from various stakeholder groups, 
including Veteran Service Organizations, private sector employers, 
career transition professionals, and transitioning service members. 
VETS is confident the DOLEW will continue to receive high marks in 
customer satisfaction.
    As a partner agency in TAP and as a member of the TAP Performance 
Management Working Group, DOL is conducting evaluations to assess the 
long-term outcomes of TAP. The first of these efforts is capturing the 
common outcome measures for TAP participants who receive employment 
services through the American Job Center (AJC) system. The TAP 
participant characteristic was added as a new reporting element for 
AJCs beginning July 1, 2013, and indicates that a participant attended 
the DOLEW within the past three years. This will be reported with 
outcome measures such as the Entered Employment Rate, the Employment 
Retention Rate, and the six months average earnings. Outcomes for each 
of the three measures will be available by the end of FY 2016.
    The DOL Chief Evaluation Office conducted an evaluability 
assessment in 2013 and based on those findings, awarded a contract to 
conduct a two part formal evaluation of the outcomes of DOLEW. The 
first part is a quasi-experimental design (QED) impact analysis to 
analyze the impacts of the DOLEW program on employment-related outcomes 
for separating military service members. Data collection is currently 
underway, and is expected to occur from FY16-17. The analyses are 
expected to be conducted and finalized in FY17. The second part 
consists of a small pilot to evaluate differential impacts of new 
delivery approaches for the DOLEW (e.g., the use of social media or 
other modes to enhance delivery or to serve as refreshers of TAP 
lessons, or variations in the visual design of TAP or outreach 
documents). The intervention design and feasibility evaluation analysis 
is currently underway. While DOL appreciates the desire for more 
specific information on the smaller demographic groups, we believe the 
ability to get statistically valid samples on these is extraordinarily 
limited. The current evaluations in the field, however, will provide 
useful information that could be used to design more specific 
evaluations of particular subgroups in the future.
    While the Department supports the intent and spirit of the draft 
legislation, DOL would prefer to wait until the aforementioned study is 
concluded in the summer of 2017 before beginning another research 
program on TAP. In an effort to ensure that VETS and VA's Vocational 
Rehabilitation and Employment officials continue a collaborative 
relationship, both agencies have renewed their commitments through 
national and local memoranda of agreement to advance, improve, and 
expand the employment outcomes for Veterans with service-connected 
disabilities and employment barriers.
    Further, should Congress conclude that another research program is 
warranted to evaluate the effectiveness of TAP in addressing the 
differentiated needs, challenges and post-military service aspirations 
of women veterans, veterans with disabilities, Native American veterans 
and other groups of minority veterans identified by the Secretary, then 
DOL hopes the Subcommittee would consider funding such a study through 
the Department's Chief Evaluation Office to allow the experts in that 
office to craft the parameters of that evaluation optimally to answer 
Congress' questions.
                               Conclusion
    The Department looks forward to continuing our work with this 
Subcommittee to ensure that our veterans have the resources they need 
to successfully compete in the civilian workforce through expanded 
opportunities in apprenticeship programs and that our transition 
programs are evaluated to ensure they are meeting the needs of our 
transitioning service members and veterans. The improving employment 
situation for veterans is a resounding testament to the impact of our 
federal programs and the nationwide response from public and private 
stakeholders acting nationally and within local communities. Mr. 
Chairman, Ranking Member Takano, distinguished Members of the 
Subcommittee, this concludes my written statement. Thank you for the 
opportunity to be a part of this hearing. I welcome your questions.

                                 --------
                   Prepared Statement of Davy Leghorn
    Chairman Wenstrup, Ranking Member Takano, and distinguished members 
of the subcommittee, on behalf of our National Commander, Dale Barnett, 
and the more than 2 million members of The American Legion, America's 
largest wartime veteran's service organization, thank you for this 
opportunity to testify regarding our position on pending and draft 
legislation before this subcommittee.
             H.R. 748: G.I. Bill STEM Extension Act of 2015
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to provide additional educational assistance under 
the Post-9/11 Educational Assistance Program of the Department of 
Veterans Affairs to certain eligible individuals.

    The American Legion wants our veterans to succeed and would like to 
see more veterans enter Science, Technology, Engineering and Math 
(STEM) fields. Recent studies from the Department of Education has 
shown that for delayed-start or non-traditional students, such as 
veterans, it takes close to 6 years to graduate. Considering the 
shortage of skilled workers with degrees in STEM subjects, this bill 
would incentivize more veterans to enter a field where there is a 
critical shortage and high yearly job growth. The American Legion 
supports this bill that would allow extension of Title 38 education 
benefits up to nine months.
    Resolution No. 312 \1\: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Learning
---------------------------------------------------------------------------
    \1\ Resolution No. 312: ``Ensuring the Quality of Servicemembers 
and Veteran Student's Education at Institutions of Higher Learning'' 
(August 2014)

---------------------------------------------------------------------------
The American Legion supports this legislation.

            H.R. 2551: Veterans Entry to Apprenticeship Act
    To amend title 38, United States Code, to ensure that veterans may 
attend pre-apprenticeship programs using certain educational assistance 
provided by the Secretary of Veterans Affairs, and for other purposes.

    The American Legion has identified that the GI Bill can be a useful 
tool to help employers defray the costs of training of veterans by 
developing an on-the-job training or apprenticeship programs thereby 
benefiting both the veteran and employer. Which is why The American 
Legion passed a resolution directly supporting the development of joint 
projects to enhance apprenticeship opportunities for eligible 
transitioning Servicemembers through their educational benefits.
    Resolution No. 297: \2\ Support The Development Of Veterans On-The-
Job Training Opportunities
---------------------------------------------------------------------------
    \2\ Resolution No. 297: ``Support The Development of Veterans On-
The-Job Training Opportunities'' (August 2014)'

---------------------------------------------------------------------------
The American Legion supports this legislation.

 H.R. 3286: Honoring Investments in Recruiting and Employment American 
                     Military Veterans Act of 2015
    To encourage effective, voluntary private sector investments to 
recruit, employ, and retain men and women who have served in the United 
States military with annual presidential awards to private sector 
employers recognizing such efforts, and for other purposes.

    Outside of contracting preferences and tax credits, Presidential 
recognition might go a long way to incentivize non-government 
contractor businesses to hire veterans. H.R. 3286 is a step in the 
right direction by rewarding exemplary companies who employ our 
veterans with a Presidential medallion. This is a low-cost measure that 
would hopefully spur private industry to hire more veterans and allow 
the Department of Labor (DOL) to implement a real-time data collection 
to properly measure veteran's hiring at the local level.
    Resolution No. 331 \3\: Support Improvements in the Reporting 
Programs Available to and Administered by Veterans' Employment and 
Training Service
---------------------------------------------------------------------------
    \3\ Resolution No. 331: ``Support Improvements in the Reporting 
Programs Available to and Administered by Veterans' Employment and 
Training Service''

---------------------------------------------------------------------------
The American Legion supports this legislation.

       H.R. 3419: Support for Student Veterans with Families Act
    To authorize the Secretary of Veterans Affairs to make grants to 
eligible educational institutions to provide child care services on 
campus.

    The American Legion wants our and all veterans to succeed and would 
always support measures that assist veterans in obtaining their degree 
if it is necessary. As a veteran service organization with a broader 
focus on the wellbeing of veterans, their families and their community, 
this is a subject of interest to The American Legion and we have 
started looking into how much childcare poses as a barrier to veterans 
obtaining their degree. The American Legion will share our findings 
with Congress once we have conducted further analysis of this matter.

The American Legion is looking into this issue.

                               H.R. 4138
    To authorize the Secretary of Veterans Affairs to recoup relocation 
expenses paid to or on behalf of employees of the Department of 
Veterans Affairs.

    The recent scandal involving senior executives at the Department of 
Veterans Affairs abusing the travel and relocation system provoked 
outrage in the veterans' community, including the veterans who make up 
The American Legion. National Commander Dale Barnett fumed that even 
their ``punishments'' (later voided by the Merit Systems Protection 
Board) did not account for hundreds of thousands of dollars did not 
amount to harsh consequences for their actions and stated:

    ``It boggles the mind to see the level of protection VA employees 
have from their own wrongdoing when the very veterans they are supposed 
to be serving slip through the cracks, some of whom will sleep on the 
streets with empty bellies this Thanksgiving.'' \4\
---------------------------------------------------------------------------
    \4\ ``Legion to VA: `Demoted officials being rewarded''' - PR 
Newswire, November 25, 2015
---------------------------------------------------------------------------
    The American Legion firmly stands behind the intent of full 
accountability within the VA for those employees, at any level, who 
transgress against the veterans they serve. In testimony between a 
joint session of the House and Senate Committees on Veterans Affairs 
this past February, Commander Barnett posed the question ``In service 
to our country [America's veterans] held up their end of the 
accountability bargain. How do you think they assess their nation's 
ability to do the same for their fellow veterans?''
    This legislation is aimed at enabling the Secretary of Veterans 
Affairs to recoup relocation expenses from VA employees under 
circumstances to be determined by the Secretary. While The American 
Legion is a staunch supporter of accountability, generally matters of 
personnel management are left to VA to determine. Because this 
legislation reaches into the normal pay and benefits system for 
employees, and relocation expenses are used properly by thousands of 
well-meaning VA employees for the right reasons, it is important to 
fully research the matter and develop a resolution with the full 
backing of the over two million members of The American Legion.
    We are interested in continuing to work closely with this 
Committee, the Senate and VA to fully understand the implications of 
this legislation and develop a solution that best serves veterans as we 
work internally with our Legionnaires to develop resolution guidelines 
that would provide clear direction on this question in the future.

The American Legion is looking into this issue.

                               Draft Bill
    To direct the Secretary of Labor to carry out a research program to 
evaluate the effectiveness of Transition Assistance Program in 
addressing needs of certain minority veterans.

    The American Legion recognizes that different groups of people or 
communities have their own set of challenges. Paths to gainful 
employment differ greatly from locality to locality. In an effort to 
provide programs and services to the majority of our veterans, 
sometimes small pockets of our veteran populations are overlooked. The 
American Legion has seen and acknowledges what works everywhere else in 
the country often does not work for our Native American and Insular 
Veterans.
    In the Native American territories, Pacific territories and 
commonwealths there are very limited jobs. In some places, local and 
federal government are often the largest employers. These communities 
need more rural and economic development than they need another veteran 
with a polished resume. These communities need our veterans to become 
local business leaders and to create jobs within their respective 
communities. The emphasis for veterans going back to these areas should 
be on entrepreneurship and the agro-eco industry. Our resolution urges 
Congress to require the Department of Labor to review and update the 
Transition Assistance Program (TAP) to ensure effectiveness in helping 
Servicemembers transition into gainful employment. The results from 
this study would assist DOL in making TAP more relevant and effective 
for our veterans in marginalized populations.
    Resolution No. 94 \5\: Improve Transition Assistance Program
---------------------------------------------------------------------------
    \5\ Resolution No. 94: ``Improve Transition Assistance Program'' 
(August 2015)

---------------------------------------------------------------------------
The American Legion supports this legislation.

                               Draft Bill
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to disapprove, for purposes of the educational 
assistance programs of the Department of Veterans Affairs, courses of 
education offered by institutions of higher learning determined by the 
Inspector General to be guilty of deceptive or misleading practices, 
and for other purposes.

    The American Legion believes that veterans are one of our nations 
true assets, and they should be treated with respect. Ensuring our men 
and women who proudly served receive their education benefit is crucial 
to The American Legion. Recently, The American Legion has seen a trend 
of the Department of Defense (DOD) and Veteran Affairs (VA) enforcing 
punitive measures on institutions of higher learning that have employed 
deceptive or misleading marketing practices to swindle veterans out of 
their earned educational benefits and award them with worthless 
degrees.
    The American Legion applauds the VA, DOD and this Committee on 
moving forward in making a veterans search for post-secondary education 
less of a minefield. This bill will enable the VA to be proactive and 
weed out the bad-actors who pose as barriers to our veterans in 
obtaining their degrees. Further, this bill will improve the quality of 
education available to veterans, ensure the maximum usage of the Post-
9/11 GI Bill and increase the success rate the veteran student.
    Resolution No. 312 \6\: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Learning
---------------------------------------------------------------------------
    \6\ Resolution No. 312: ``Ensuring the Quality of Servicemembers 
and Veteran Student's Education at Institutions of Higher Learning'' 
(August 2014)

---------------------------------------------------------------------------
The American Legion supports this draft legislation.

                               Draft Bill
    To make certain improvements in the laws administered by the 
Secretary of Veterans Affairs relating to educational assistance, and 
for other purposes.

    While The American Legion supports this effort to improve the 
administration of the Post-9/11 GI Bill and reduce the occurrence of 
overpayments, we would like to offer one caveat regarding Section 6.
    The American Legion does not believe a student enrolls in a college 
course with the intention of dropping it later for secondary gain. 
Extenuating circumstances are often the reasons for courses being 
dropped. For the students attending college full-time, their rent and 
living expenses are not reduced when they drop a course. Reducing their 
benefits in this instance might result in these students having to drop 
out of school and will cause more problems than this proposed 
legislation intends to solve. While all full-time students will be 
affected, the full-time students at brick and mortar schools stand to 
lose the most with this change. The American Legion would like to see 
some protections for these full-time students who become part-time 
students in response to extenuating circumstances.
    Resolution No. 312 \7\: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Learning
---------------------------------------------------------------------------
    \7\ Resolution No. 312: ``Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Learning'' 
(August 2014)

The American Legion supports this draft legislation, with some 
---------------------------------------------------------------------------
    reservations to Section 6.

                               Draft Bill
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to provide educational and vocational counseling for 
veterans on campuses of institutions of higher learning, and for other 
purposes.

    This bill would allow the Vet-Success program under VA's Office of 
Economic Opportunity to become permanent and require an annual report 
to be shared with Congress regarding programmatic progress. The data 
collected will allow VA to direct and improve the services currently 
administered on college campuses and hopefully result in higher 
graduation rates for our veterans.
    Resolution No. 312 \8\: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Learning
---------------------------------------------------------------------------
    \8\ Resolution No. 312: ``Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Learning'' 
(August 2014)

---------------------------------------------------------------------------
The American Legion supports this draft legislation.

                               Conclusion
    Chairman Wenstrup, Ranking Member Takano, and distinguished members 
of the subcommittee, The American Legion thanks you and this 
subcommittee for the opportunity to explain the position of the more 
than 2 million veteran members of America's largest wartime veteran's 
service organization.
    For additional information regarding this testimony, please contact 
Mr. Matthew Shuman at The American Legion's Legislative Division at 
(202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="662b150e130b0708260a03010f090848091401">[email&#160;protected]</a>

                                 --------
              Prepared Statement of Dr. Joseph W. Wescott

Introduction

    Chairman Wenstrup, Ranking Member Takano and members of the 
Subcommittee on Economic Opportunity, I am pleased to appear before you 
today on behalf of the over fifty-five member state agencies of the 
National Association of State Approving Agencies (NASAA) and appreciate 
the opportunity to provide comments on bills pending before this 
committee. I am accompanied today by our Legislative Committee Vice-
Chair and Judge Advocate, Retired Sergeant Major Robert Haley. Given 
the large number of bills being considered, we will keep our comments 
brief and focus our testimony on those areas in which we feel we can be 
of most assistance to this committee.

H.R. 748 GI Bill STEM Extension Act of 2015

    The past several years has seen considerable concern regarding a 
shortage of science, technology, engineering, and mathematics (STEM) 
workers to meet the demands of our labor market. As such, NASAA 
strongly supports the intent of this bill, but recommends that the 
legislation be amended to clarify those who would qualify for this 
benefit.

H.R. 2551 Veterans' Entry to Apprenticeship Act.

    NASAA supports this bill, particularly as it could serve to 
increase enrollment in approved apprenticeship programs. However we 
offer the following recommendations. First, to ensure only quality 
programs are offered, we believe that approval authority should rest 
with the State approving agency. This is not specified in the current 
proposal. Second, specific approval criteria should be developed in 
addition to those items identified in H.R. 2551 to include: 1) the 
training establishment offering training must submit to the appropriate 
State approving agency a written application for approval; 2) there 
should be a maximum program length of 12 weeks, not to exceed 600 
hours; 3) hours should be credited towards total required hours in the 
apprentice program; and 4) the State approving agency must find that 
there exists a reasonable certainty that the apprentice program for 
which the eligible veteran or person is to be trained will be available 
at the end of the training period. It is important to remember that 
pre-apprenticeship programs vary greatly from state to state. It is the 
State approving agencies, providing that local, ``boots on the ground'' 
oversight and supervision that are best positioned to ensure that the 
intent of Congress is indeed delivered.

H.R. 3286 Hire Vets Act of 2015

    NASAA supports this bill and sees in it yet another opportunity to 
encourage employers to hire veterans. We would also see in this bill an 
opportunity to highlight or bring attention to the Apprenticeship and 
On-The-Job training programs which can be approved under the GI Bill. 
As we testified before this Committee last November, we believe ``OJT 
and Apprenticeship programs under the various chapters of the GI Bill 
provide a tremendous opportunity to put our Nations veterans back to 
work immediately in meaningful and rewarding careers that are needed in 
our economy.''

H.R. 3419 Support for Student Veterans with Families Act of 2015

    This proposed legislation would authorize the Department of 
Veterans Affairs to make up to 50 grants in FY2016 to eligible 
educational institutions to provide child care services on campus for 
student veterans. NASAA strongly supports the intent of this bill and 
we believe it would encourage institutions to provide affordable 
childcare to veterans enrolled in higher education and support success 
in their educational program. We would like to see clarifying language 
added to clarify eligibility and implementation.

H.R. 4138 To authorize the Secretary of Veterans Affairs to recoup 
    relocation expenses paid to or on behalf of employees of the 
    Department of Veterans Affairs

    NASAA neither supports nor opposes this legislation at this time.

[Discussion Draft] Veterans Success on Campus Act of 2016

    NASAA supports this bill. We would like the implementation language 
modified to specify that resources be shared with or otherwise 
available to neighboring campuses.

[Discussion Draft] To direct the Secretary of Labor to carry out a 
    research program to evaluate the effectiveness of Transition 
    Assistance Program in addressing needs of certain minority 
    veterans.

    NASAA strongly believes that we should attempt to eradicate any 
barriers to employment or aspirations for any groups of veterans and 
when possible, that the Transition Assistance Program should be 
designed to appropriately address the needs of veterans which are 
substantially different. NASAA supports this bill.

[Discussion Draft] GI Bill Oversight Act of 2016.

    NASAA supports this bill but we would like to see the language of 
the bill expanded to include all schools approved for GI Bill r 
benefits by replacing the phrase ``institutions of higher learning'' 
with the term ``institutions.'' This will allow for the inclusion of 
non-college degree schools. We recommend Section 2 be modified to 
specify the purpose and scope of the Inspector General Investigation, 
to add to subsection (b)(2) that students provide to the Inspector 
General any information that may be relevant to the investigation and 
to add the requirement that the Inspector General will also notify the 
appropriate State Approving agency upon commencing an investigation and 
share their findings. Also, it is critical that State approving 
agencies retain both approval and disapproval authority. Therefore, we 
recommend in Section 3 replacing ``The Secretary'' with ``The State 
approving agency or the Secretary when acting in the absence of the 
State approving agency.'' This change clarifies and codifies that State 
approving agencies have the primary statutory authority to protect our 
Veterans and their families from those who would engage in unscrupulous 
conduct. Further, in Sections 2 and 3, we respectfully suggest that the 
word ``guilty'' not be used to describe administrative findings.

[Discussion Draft] A Bill to make certain improvements in the laws 
    administered by the Secretary of Veterans Affairs relating to 
    educational assistance, and for other purposes,

    NASAA supports Sections 2 through 4, as well as Sections 6 (with 
reservation) and 7 in their current form. NASAA supports the intent of 
Section 5, but while we agree that training of school certifying 
officials should be a requirement, we do not agree that training should 
solely be the responsibility of the VA. In the past, State approving 
agencies regularly provided one-on-one, targeted training to certifying 
officials. Prior to fiscal year 2012, when SAAs began assisting the VA 
with compliance surveys, State approving agencies conducted supervisory 
visits at 80%-90% of our active facilities every year. On-site training 
of SCOs was a core component of these supervisory visits. Now, as a 
result of conducting compliance surveys on behalf of the VA, we only 
visit approximately 15% of our active facilities each year. While we 
provide training to the extent we can in conjunction with compliance 
surveys, it is clear that the compliance survey assignments have 
greatly reduced our ability to regularly visit and train certifying 
officials. We do not think it is unreasonable to conclude that the 
reduction in on-site training during SAA supervisory visits has played 
a role in the percentage of GI Billr overpayments due to certifying 
official errors, as discussed in the GAO report from October 2015 on 
Additional Actions Needed to Help Reduce Overpayments and Increase 
Collections. We believe that working towards a better balance of 
supervisory visits and compliance survey visits will result in better 
training and oversight as well as fewer overpayments due to school 
errors. With that in mind, regarding section 5 of the proposed 
legislation, we believe that the development of the training 
recommended in the GAO report should be a collaborative effort between 
VA and NASAA, with input from school certifying officials. We believe 
this would help ensure the efficacy of the program. Should the 
committee choose to move forward with section 5 of the proposed 
legislation at this time, we would suggest the following modifications. 
First, in subsection (a), program disapproval authority should 
primarily reside with the State Approving Agency, as stated above. 
Second, NASAA recommends limiting any requirement for off-site training 
to those institutions with more than 20 GI Billr recipients annually. 
This will mitigate what could be perceived as an onerous training 
requirement for many of the schools with a very small GI Billr student 
cohort, which in turn could result in many high-quality programs being 
withdrawn at the schools' request. However, reasonable and proper 
online training should be mandatory for all certifying officials.

Conclusion

    Mr. Chairman, today, over fifty-five SAAs, composed of 
approximately 175 professional and support personnel are supervising 
over 14,000 active facilities with more than 100,000 programs. We are 
extremely grateful for the opportunity to once again appear before this 
committee to share our positions on these important pieces of proposed 
legislation. We remain committed to working closely with our VA 
partners, VSO stakeholders and educational institutions on these and 
other initiatives designed to protect the quality and the integrity of 
the various GI Bill r programs and the Veterans and family members who 
have sacrificed so much for this great Nation. I thank you again for 
this opportunity and I look forward to answering any questions that you 
or committee members may have.

                                 <F-dash>
                  Prepared Statement of Walter Ochinko
    Chairman Wenstrup, Ranking Member Takano, and Members of the 
Subcommittee:
    Veterans Education Success (VES) appreciates the opportunity to 
share its perspective on Representative Takano's GI Bill Oversight Act 
of 2016. VES is a non-profit organization focused on protecting the 
integrity and promise of the G.I. Bill and other federal educational 
programs for veterans and servicemembers.
    VES believes that the G.I. Bill Oversight Act seeks to address a 
critical shortcoming in the management of G.I. Bill educational 
benefits by the Department of Veterans Affairs (VA)-the lack of 
enforcement to protect veterans from the predatory behavior of some 
schools. When it comes to oversight of the G.I. Bill, VA's practice to 
date has been to focus on managing and tracking benefit payments. Any 
other oversight issues, such as protecting veterans' hard-earned 
educational benefits and taxpayers' investment from fraud or abuse, 
receives far too little attention.

Some Schools Engage in Misleading and Deceptive Advertising and 
    Recruiting

    Last year, VES research demonstrated that 20 percent of the 300 
G.I. Bill-approved degree programs it examined did not lead to jobs 
because they lacked the appropriate accreditation or failed to meet 
state-specific criteria required for licensure or certification. These 
schools recruit students by misleading them about the schools' 
accreditation and the ability of graduates to subsequently get a job in 
their field of study. To help address this problem, the House approved 
the Career Ready Student Veterans Act last month, a bill that received 
bipartisan support from this Committee.
    Because our research only examined a small number of degree 
programs, we reported that our findings were just the ``tip of the 
iceberg.'' Indeed, over a dozen settlements by five different federal 
agencies and nine state Attorneys General since 2012 provide credible 
evidence that VES's findings were not an anomaly. Please refer to the 
summary of federal and state settlements attached to this statement. 
The basis for all but one of these settlements were findings of 
misleading and deceptive advertising and recruiting, including 
misrepresenting costs, quality, accreditation and the transferability 
of credits, job placement rates, and post-graduation salaries. \1\
---------------------------------------------------------------------------
    \1\ One of the settlements involved violations of ED's incentive 
compensation regulations.
---------------------------------------------------------------------------
    VA's reaction to these settlements has been extremely limited-
posting a caution flag for only one of the five federal settlements and 
for none of the state Attorneys General settlements. \2\ And, all of 
the schools continue to participate in the G.I. Bill, despite a Vietnam 
era statute that obligates VA to deny revenue from veterans educational 
benefits to schools that engage in deceptive and misleading advertising 
and recruiting.
---------------------------------------------------------------------------
    \2\ For six of the nine schools with state AG settlements, VA has 
posted an unrelated caution flag indicating that the institution is 
subject to Department of Education Heightened Cash Monitoring.

Ban on Deceptive and Misleading Advertising and Recruiting Enacted in 
---------------------------------------------------------------------------
    1974

    Sec. 3696 of Title 38 was enacted in 1974 as part of the Vietnam 
Era Veterans' Readjustment Act. It requires the VA Secretary to:

    ``not approve the enrollment of an eligible veteran or eligible 
person in any course offered by an institution which utilized 
advertizing, sales, or enrollment practices of any type which are 
erroneous, deceptive, or misleading either by actual statement, 
omission, or intimation.''

    Why did Congress determine that G.I. Bill protections against 
misleading and deceptive advertising and recruiting were necessary 40 
years ago?
    The Senate Veterans Committee Report acknowledged that any increase 
in the amount of federal funds a veteran has available to purchase 
educational services served as a strong economic incentive for certain 
schools to seek out and enroll those veterans. \3\ But these same 
schools were offering low quality education and using erroneous or 
misleading advertising, sales, or enrollment practices. The result was 
degrees or certificates that did not qualify veterans for jobs in the 
fields that they studied. Such problems date back to the 1940s with the 
enactment of the original G.I. Bill.
---------------------------------------------------------------------------
    \3\ Report of the Committee on Veterans' Affairs, U.S. Senate, to 
accompany S. 2784, Report No. 93-907, June 10, 1974.
---------------------------------------------------------------------------
    The Senate Committee Report cited specific and credible evidence 
that such problems existed:

    <bullet>  FTC investigative file provided to the committee,
    <bullet>  Brookings Institution Study for the Office of Education,
    <bullet>  Proceedings of the National Invitational Conference on 
Consumer Protection in Post-Secondary Education, and
    <bullet>  Boston Globe investigative series.

    It's instructive that one of the examples detailed in the Boston 
Globe series is a predatory school that misled the Massachusetts State 
Approving Agency about its accreditation and succeeded in enrolling 
veterans who, when they graduated, learned that they could not obtain 
the state license necessary for employment. This same school operated 6 
of the degree programs that our 2015 research found did not lead to the 
necessary state licensure or certification. Not only did history repeat 
itself, but the same ``bad actors'' continue to repeat their activity.

VA Has Not Enforced Sec. 3696 for 40 Years

    To enforce Sec. 3696, schools must maintain a complete record of 
all advertising, sales, or enrollment materials utilized by or on the 
behalf of the institution during the past year, which are to be made 
available to state approving agency (SAA) or VA inspectors. In August 
2014, the VA finally added a requirement to the compliance survey form 
asking inspectors to determine ``Does the school use fraudulent and 
unduly aggressive recruiting?'' According to a former SAA director, 
SAAs rarely, if ever, review advertising materials during compliance 
reviews. \4\ Rather, they focus on whether the payments to the schools 
were accurate.
---------------------------------------------------------------------------
    \4\ In December 2015, the Virginia SAA withdrew the approval of 
ECPI's Medical Career Institute for violating Sec. 3696. This is the 
only known SAA action taken under this statutory requirement. VA 
requested an SAA inspection based on veteran complaints.
---------------------------------------------------------------------------
    Furthermore, Sec. 3696 requires the Secretary to ``enter into an 
agreement with the FTC to utilize the commission's services in carrying 
out investigations and making the Secretary's determinations'' of 
deceptive or misleading advertizing, sales, or enrollment practices. 
The implementing Memorandum of Understanding (MOU) between VA and the 
FTC was not signed until November 2015, more than 40 years after the 
enactment of Sec. 3696, and only after significant pressure from 
veterans organizations and the White House. VA has clearly been 
dragging its feet. Even now, it is not clear that VA has referred any 
cases to the FTC for investigation, as required by the MOU.

VA Has a Statutory Obligation to Protect Veterans

    In February 2016, the Veterans Legal Clinic at the Yale School of 
Law briefed Congressional staff on a Memorandum titled ``VA's Failure 
to Protect Veterans from Deceptive Recruiting Practices.'' \5\ Their 
work was spurred by a July 2015 letter from the VA Under Secretary of 
Benefits, Allison Hickey, to eight U.S. Senators, which stated that the 
Department had limited authority to take action against educational 
institutions that use deceptive marketing practices. The Under 
Secretary wrote:
---------------------------------------------------------------------------
    \5\ http://static1.squarespace.com/static/556718b2e4b02e470eb1b186/
t/57028cde9f72667cfc9d1a8f/1459784926780/Yale-VES+Memo+.pdf

    The authority for the approval of educational programs is 
specifically granted to the State Approving Agencies (SAAs) under Title 
38 of the United States Code. Any course approved for benefits that 
fails to meet any of the approval requirements should be immediately 
disapproved by the appropriate SAA. VA is prohibited, by law, from 
exercising any supervision or control over the activities of the SAAs, 
---------------------------------------------------------------------------
except during the annual performance evaluations.

    VA has also told veterans groups that they cannot take intermediate 
steps, such as a suspension of funds to a school.
    After researching statutes, their structure, regulations, and 
legislative history, Yale Law School determined there was a very clear 
answer: VA was wrong. Although SAAs do maintain authority to approve 
and disapprove courses, so does VA and both can take intermediate 
steps, such as suspending courses. Yale Law School concluded there was 
no ambiguity in the statutes and no basis whatsoever for VA's position 
that it lacked authority to act to stop deceptive recruiting. Indeed, 
Sec. 3696 obligates VA to not approve veterans enrollment in courses 
offered by institutions that use erroneous, deceptive, or misleading 
advertising, sales, or enrollment practices.

VA Has Taken No Action in Response to the FTC Settlement with Ashworth 
    College

    As just one example of VA's failure to adhere to 38 USC 3696, VA 
has failed to do anything about a recent federal sanction against a 
school for misleading and deceptive recruiting. On May 26, 2015, the 
Federal Trade Commission announced a settlement with Ashworth College 
based on findings that the school had misled students about the 
training they received and their ability to transfer credits to another 
school. \6\ The FTC found that (1) many programs offered by this school 
did not meet state requirements for those careers, including teachers 
and massage therapists, and (2) claims made about credit transfers were 
often not true. In reaching the settlement, Ashworth College admitted 
no wrongdoing. The FTC settlement was announced about 5 months before 
the completion of the MOU with VA and the FTC investigation was not 
requested by VA. The settlement, however, appears to meet the criteria 
set out in Sec. 3696 for terminating the school's participation in the 
G.I. Bill.
---------------------------------------------------------------------------
    \6\ https://www.ftc.gov/news-events/press-releases/2015/05/
ashworth-college-settles-ftc-charges-it-misled-students-about
---------------------------------------------------------------------------
    As of April 11, 2016, however, Ashworth College is still approved 
to receive G.I. Bill educational benefits. Furthermore, the G.I. Bill 
College Comparison Tool contains no warning to veterans about the FTC 
settlement and findings. And, ironically, Ashworth is still listed as 
subscribing to and following the Principles of Excellence on the G.I. 
Bill College Comparison Tool.
    VA's failure to revoke approval of Ashworth or any of the other 
schools already successfully sued by state Attorneys General or federal 
agencies raises several questions about the processes in place to 
detect and respond to findings of deceptive and misleading advertising, 
sales, or enrollment practices.

    <bullet>  What standard of proof should the VA utilize to enforce 
findings of false advertising, sales, or enrollment practices by 
participating schools?
    <bullet>  What facts or findings by another government agency are 
sufficient to trigger a VA response of suspension or withdraw of 
approval from participation in GI Bill benefits?
    <bullet>  Does VA consider a settlement that is based on findings 
of fact by a government agency, but that does not include admission of 
wrongdoing by the school, to be insufficient evidence to withdraw a 
school's approval?
    <bullet>  What is the basis for a determination that a school has 
violated Sec. 3696?
    <bullet>  Has the VA referred any cases to the FTC since the VA/FTC 
MOU was signed in November 2015?

VA's Recent Action Against DeVry: Harbinger of Stronger Enforcement?

    On March 6, 2016, the Veterans Advisory Committee on Education 
outlined the issues discussed at their fall meeting and offered 
Secretary MacDonald recommendations. \7\ The Committee noted that 
compliance and enforcement of the Principles of Excellence Executive 
Order was a priority concern because of the absence of any standard 
operating enforcement plan, aside from the discovery of a violation 
during a compliance survey. \8\
---------------------------------------------------------------------------
    \7\ http://static.politico.com/6f/db/0eff47e14e7ea18730dd924a0aa6/
va-panel-recommendations.pdf
    \8\ The POE establishes behavioral expectations for schools that 
enroll veterans using their GI Bill educational benefits.
---------------------------------------------------------------------------
    To help manage expectations of participating schools and 
systematize oversight, the Committee called for establishment of a 
compliance framework that includes a checklist for VA employees to 
measure compliance and standards for school probation and/or removal. 
\9\ In conjunction with the framework, the Committee also recommended 
additional caution flags on the G.I. Bill College Comparison Tool so 
that veterans are informed about other government actions related to 
G.I. Bill participating schools.
---------------------------------------------------------------------------
    \9\ In contrast, DOD already has an assessment process in place to 
help ensure compliance with the MOUs schools must sign in order to 
participate in Tuition Assistance. The assessment process includes a 
range of penalties and a commitment to share findings with appropriate 
federal agencies.
---------------------------------------------------------------------------
    About a week later, VA announced suspension of DeVry University's 
participation in the POE program. To be designated a POE school, an 
institution must agree to avoid aggressive recruiting and abide by 
federal laws and regulations, including those prohibiting 
misrepresentation and incentive compensation of recruiters. VA's 
actions were based on a review of the FTC lawsuit against DeVry, which 
allege that the school had deceptively advertised job placement rates 
and salary levels; VA also cited the Department of Education's notice 
of intent to place limitations on DeVry based on related conclusions 
and the significant number of complaints VA had received from veterans 
about misrepresentations by DeVry. Finally, VA posted caution flags on 
the G.I. Bill College Comparison Tool calling attention to the FTC and 
ED actions.
    It is worth emphasizing that the FTC lawsuit is ongoing, and, as 
with many legal actions against predatory schools, the lawsuit could 
end up in a settlement. DeVry continues to participate in the GI Bill 
and can continue to enroll veterans. Acting on the basis of a lawsuit 
is a departure for VA, which has only posted caution flags on the G.I. 
Bill College Comparison Tool about one of five federal settlements. VES 
applauds VA's action and believes that it is an encouraging sign.

Conclusion

    The G.I. Bill Oversight Act would help to elevate the priority 
placed on protecting veterans and increase the efforts to enforce VA's 
existing statutory and regulatory requirements to prohibit 
misrepresentation and deceptive recruiting. By engaging the VA Office 
of Inspector General in the enforcement process, the bill jump-starts 
Departmental enforcement by turning to an existing, well trained, 
resourced, and audit/investigation oriented organization. Equally 
important, however, is changing the mindset at VA that paying benefits 
is only one part of VA's mission to serve veterans; VA must do more 
than simply track the dollars out the door. It must take seriously its 
statutory obligation to protect veterans from deceptive recruiting and 
protect taxpayers' investment from waste, fraud, and abuse.
    While a more proactive VA is an important step in helping to 
protect veterans from predatory schools, more effective coordination, 
cooperation, and data sharing among all federal agencies-ED, DOD, CFPB, 
FTC, Justice, and the SEC-are also critical.
    Combating fraud and abuse by predatory schools needs to be a top 
federal as well as a top VA priority.
    Thank you for opportunity to testify. I would be happy to answer 
any questions.
    Walter Ochinko
    Policy Director
    Veterans Education Success
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b5c4a475f4e596b5d4e5f4e594a45584e4f5e484a5f424445585e48484e58580544594c">[email&#160;protected]</a>

                                                                       Attachment
                                           State Attorneys General and Federal Agency Settlements with Schools
--------------------------------------------------------------------------------------------------------------------------------------------------------
                       School                               Agency          Settlement date    Settlement amount       Findings            VA action
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alta (Westwood College)                                           CO-AG          March 2012        $4.5 million            Provided     Heightened Cash
                                                                                                                         misleading   Monitoring Caution
                                                                                                                     information to                Flag
                                                                                                                    students on job
                                                                                                                   placement rates,
                                                                                                                       tuition, and
                                                                                                                  transferability of
                                                                                                                  credits. Veterans
                                                                                                                  were falsely told
                                                                                                                  that their GI Bill
                                                                                                                     benefits would
                                                                                                                  cover the cost of
                                                                                                                        tuition.(a)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alta (Westwood College)                                               IL-AG       Nov. 2015         $15 million      Misrepresented     Heightened Cash
                                                                                                                          costs and   Monitoring Caution
                                                                                                                         employment                Flag
                                                                                                                   opportunities in
                                                                                                                       its criminal
                                                                                                                            justice
                                                                                                                        program.(b)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Ashworth                                                            FTC            May 2015      $11 million(c)   Many programs did                None
                                                                                                                     not meet state
                                                                                                                          licensure
                                                                                                                   requirements for
                                                                                                                  those professions,
                                                                                                                  including teachers
                                                                                                                        and massage
                                                                                                                    therapists, and
                                                                                                                    the claims made
                                                                                                                       about credit
                                                                                                                     transfers were
                                                                                                                  often not true.(d)
--------------------------------------------------------------------------------------------------------------------------------------------------------
ATI                                                             Justice           Aug. 2013        $3.7 million          Misleading       ATI filed for
                                                                                                                         recruiting   bankruptcy in Jan.
                                                                                                                       practices at                2014
                                                                                                                  campuses in Texas
                                                                                                                  and several other
                                                                                                                         states.(e)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Bridgepoint (Ashford College)                                     IA-AG            May 2014                $7.5          Misleading                None
                                                                                                                         recruiting
                                                                                                                      practices.(f)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Career Education Corporation (Sanford Brown,                      NY-AG           Aug. 2013      $10.25 million       Significantly     Heightened Cash
 Briarcliff, American Continental University,                                                                          inflated job   Monitoring Caution
 Colorado Technical University)                                                                                     placement rates                Flag
                                                                                                                       and provided
                                                                                                                         misleading
                                                                                                                  information about
                                                                                                                             credit
                                                                                                                      transfers.(g)
--------------------------------------------------------------------------------------------------------------------------------------------------------
EDMC (Argosy)                                                     CO-AG           Dec. 2013        $3.3 million     Falsely claimed     Heightened Cash
                                                                                                                  that PhD graduates  Monitoring Caution
                                                                                                                       could become                Flag
                                                                                                                  licensed clinical
                                                                                                                  psychologists even
                                                                                                                  though its program
                                                                                                                  was not accredited
                                                                                                                    by the American
                                                                                                                      Psychological
                                                                                                                    Association.(h)
--------------------------------------------------------------------------------------------------------------------------------------------------------
EDMC (Art Institute)                                   SF City Attorney           June 2014        $4.4 million        Used illegal     Heightened Cash
                                                                                                                          marketing   Monitoring Caution
                                                                                                                         practices,                Flag
                                                                                                                          including
                                                                                                                          providing
                                                                                                                  misleading data on
                                                                                                                   placement rates,
                                                                                                                  actual or average
                                                                                                                      salaries, and
                                                                                                                        graduation/
                                                                                                                         completion
                                                                                                                          rates.(i)
--------------------------------------------------------------------------------------------------------------------------------------------------------
EDMC                                                            Justice           Nov. 2015       $95.5 million   Violated the Dept.    Settlement with
                                                                                                                       of Education     U.S. Government
                                                                                                                          incentive        Caution Flag
                                                                                                                       compensation
                                                                                                                    regulations.(j)
--------------------------------------------------------------------------------------------------------------------------------------------------------
EDMC                                                       40 state AGs           Nov. 2015        $103 million     Used misleading
                                                                                                                      and deceptive
                                                                                                                         recruiting
                                                                                                                      practices.(k)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Education Affiliates(Fortis Institute and numerous              Justice           June 2015         $13 million   Misrepresented job    Heightened Cash
 other brands)                                                                                                            placement   Monitoring Caution
                                                                                                                          rates.(l)                Flag
--------------------------------------------------------------------------------------------------------------------------------------------------------
Kaplan                                                                FL-AG       June 2014                              Misleading                None
                                                                                                                         recruiting
                                                                                                                      practices.(m)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Justice           July 2015        $1.3 million    Used unqualified                None
                                                                                                                    instructors who
                                                                                                                       did not meet
                                                                                                                      minimum Texas
                                                                                                                   standards in its
                                                                                                                  medical assisting
                                                                                                                        program.(n)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Premier Education Group (Salter College)                          MA-AG           Dec. 2014       $3.75 million   Misrepresented job               None
                                                                                                                  placemement rates
                                                                                                                  and used deceptive
                                                                                                                         enrollment
                                                                                                                        tactics.(o)
--------------------------------------------------------------------------------------------------------------------------------------------------------
(a) http://www.denverpost.com/smart/ci--20172161/colorado-attorney-general-reaches-settlement-westwood-2-
(b) https://www.cfpbmonitor.com/wp-content/uploads/sites/5/2014/11/IL-AG-second-amended-complaint.pdf
(c) The $11 million fine was waived because of the school's inability to pay.
(d) https://www.ftc.gov/news-events/press-releases/2015/05/ashworth-college-settles-ftc-charges-it-misled-students-about
(e) http://www.justice.gov/opa/pr/2013/August/13-civ-953.html#sthash.fla0snpj.dpuf
(f) http://www.ashfordsettlement.com/faqs.html
(g) http://www.ag.ny.gov/press-release/ag-schneiderman-announces-groundbreaking-1025-million-dollar-settlement-profit
(h) https://www.coloradoattorneygeneral.gov/press/news/2013/12/05/attorney--general--suthers--announces--consumer--protection--settlement--argosy--unive
  and htttp://www.bizjournals.com/denver/news/2013/12/05/argosy-university-pays-colorado-33m.html
(i) http://www.sfgate.com/bayarea/article/SF-wins-4-4M-settlement-with-for-profit-art-5559635.php
(j) http://www.justice.gov/opa/pr/profit-college-company-pay-955-million-settle-claims-illegal-recruiting-consumer-fraud-and
(k) http://kentucky.gov/Pages/Activity-Stream.aspx?viewMode=ViewDetailInNewPage&eventID=%7B15E27858-880A-4479-A5F6-
  B1966D22274F%7D&activityType=PressReleasej
(l) http://www.justice.gov/opa/pr/profit-education-company-pay-13-million-resolve-several-cases-alleging-submission-false
(m) The Florida AG entered into a voluntary assurance of compliance with Kaplan. http://myfloridalegal.com/webfiles.nsf/WF/JMEE-9L6QDA/$file/
  KaplanAVC.pdf#sthash.YDI8hEsG.dpuf
(n) http://www.justice.gov/usao-wdtx/pr/profit-college-kaplan-refund-federal-financial-aid-under-settlement-united-states
(o) http://www.mass.gov/ago/news-and-updates/press-releases/2014/2014-12-12-salter-college.html#sthash.fla0snpj.dpuf


                                 --------
                    Prepared Statement of Jared Lyon
    Chairman Wenstrup, Ranking Member Takano, and Members of the 
Subcommittee:
    Established in 2008, Student Veterans of America has grown to 
become a force and voice for the interests of veterans in higher 
education. With nearly 1,400 chapters across the country, we are 
pleased to share the perspective of those most directly impacted by 
this subject with this committee. With a myriad of programs supporting 
their success, rigorous research development seeking ways to improve 
the landscape, and advocacy throughout the nation, we place the student 
veteran at the top of our organizational pyramid. As the future leaders 
of this country, nothing is more paramount than their success in school 
to prepare them for productive and impactful lives.

GI Bill STEM Extension Act of 2015

    For most veterans hoping to enter the science, technology, 
engineering, and mathematics fields, also known as the STEM fields, 
they are faced with the harsh reality that entrance into these majors 
requires starting their college career at the pre-college math level, 
such as pre-calculus and pre-algebra. This holds true for many of the 
sciences such as chemistry, physics, and biology. The additional time 
that it takes for a veteran to complete a STEM degree easily pushes 
graduation passed the standard 36 months allotted by the Post-9/11 GI 
Bill. We at SVA see that the extra year need for graduation completion 
discourages many veterans from pursuing STEM degrees. A plan to provide 
one extra year of GI Bill benefits to STEM degree-seeking veterans 
would alleviate this concern, giving veterans the extra time needed to 
complete their degree.
    A study done by Georgetown University in 2015 reviewed the Economic 
Value of College Majors in the United Sates. That study uncovered that 
the highest annual wages earned after graduation came from the career 
STEM field. Individuals who complete a STEM degree earn an average of 
$65,000 a year when starting their career whereas non-STEM degree 
graduates earned $50,000 annually. Additionally, this study revealed 
that the least popular undergraduate majors for student to pursue were 
all in the STEM fields. It is our hope that the GI Bill STEM Extension 
Act of 2015 will influence transitioning service member to pursue STEM 
degrees without the discouragement of incurring additional debt. 
Additionally, it is our hope that this bill will encourage current STEM 
majors to complete their degree as opposed to changing to a degree that 
requires less time in school.
    We propose some changes to the language in H.R. 748. The new 
language the GI Bill Extension Act will authorize 33,000 veteran STEM 
majors in need of an additional year of GI Bill benefits to ability the 
complete their degree. To achieve this we recommend the following 
changes:

    1.A one-time stipend of $30,000 to cover ALL expenses. It will be 
the veteran's responsibility to spend the money on tuition and rent.
    2.This benefited will only be available to veterans.
    3.Restrict usage to only the classes required to achieve the 
degree.
    4.First priority given to students that require the most number of 
credit hours to achieve their degree.
    5. Limit the use of degrees listed in lines 5-13 on page 3 of the 
legislation. Delete lines 14-21.
    6.If the veteran does not complete the program, excluding death in 
the family, personal illness (including PTS), unexpected relocation, 
unexpected family illness (including caretaking of family members), the 
amount paid will be reimbursed over a period of 6 years of $5,000 a 
year.
    7.Veterans who receive less than 100% of the GI Bill will receive 
the percentage they are qualified for of the one-time payment of 
$30,000. Veterans who qualify for 100% GI Bill tuition will be awarded 
before individuals who are not qualified for 100% GI Bill payments.

    With STEM majors paying an average of $260,000 more in taxes than 
non-STEM majors over their lifetime, we see a return on investment, if 
this Bill were to move forward, of $8.6 Billion. $7.6 Billion more than 
the cost to the government to fund this initiative. That is a return of 
around $8 for every $1 spent.
    Because of this, SVA fully supports the GI Bill Extension Act of 
2015 and hopes to remain part of the discussion on how to improve the 
economic impact of STEM majors in the United States by motivating 
transitioning service members to enter into these fields of study.

The GI Bill Oversight Act of 2016

    Over the past eight years, Student Veterans of America has worked 
hard to protect veterans pursuing their higher education degrees. 
Unfortunately, primarily due to 90/10, we have seen predatory practices 
on veterans by less than reputable educational institutions. Year after 
year, we hear of stories where veterans were cheated by ``bad actors'' 
in the educational realm with no recourse to recoup their hard-earned 
GI Bill benefits.
    The GI Bill Oversight Act of 2016 is a step in the right direction 
in protecting student Veterans from less than honorable institutions. 
Requiring the Inspector General to investigate institutions of higher 
learning that have been found guilty by any Federal or State agency for 
deceptive or misleading practices, will help protect Veterans from 
these predatory institutions.
    However, we do propose some changes to the language. We would 
recommend removing lines 15 to 22 on page 2 of the Draft Bill. We find 
that by instigating an investigation by the Inspector General when an 
institution is currently being investigated at the State or Federal 
level or in any class action lawsuit for deceptive or misleading 
practices is too broad in nature. We feel that an investigation after 
an institution if found guilty is more appropriate. Sections (1) ``is 
the defendant in a class action lawsuit for deceptive or misleading 
practices'' and (2) ``is under investigation by any Federal or State 
Agency for deceptive or misleading practices'' is triggering an 
investigation before the outcome of the case is determined. We feel 
that allocating Federal resources to every school under investigation 
or in a lawsuit might overwhelm the Inspector General and target 
schools under investigation but are considered by the general education 
community as ``good actors''. Section (3) ``has been found guilty by 
any Federal or State agency of deceptive or misleading practices'' is 
much more focused and we feel this language will help capture the ``bad 
actors'' of the educational industry.
    Our suggestion would be to reword line 18 to 22 (sections 3699, 
(a), (1) and (2)) to be more specific or remove section (1) and reword 
the term ``investigation'' in section (2) to something less direct. 
Additionally, we support the concept of notifying students when an 
investigation has started (3699, (b), (A), (B) - Line 1 to 7 on page 
3). This will allow a more informed consumer, which is a subject we 
always support.
    Although we support the GI Bill Oversight Act of 2016, we feel that 
there is some room to improve the language of the Bill to fully capture 
the ``Bad Actors'' that abuse the GI Bill and veterans while still 
protecting reputable institutions. We would absolutely welcome the 
chance to be a party in the furthered discussion of this Bill.

The Support for Student Veterans with Families Act

    A Census Survey done by Student Veterans of America (appendix A:), 
shows that there is a significant concern among single parents who 
served in the military and are currently enrolled in higher education 
in regards to accessing and paying for child care. With over 70,000 
single veteran parents attending institutions of higher learning, this 
is a topic that we cannot ignore. Our study shows that 49% of current 
student veterans have indicated that childcare had a negative or 
extremely negative impact on their budget. Additionally, 20% of student 
veterans indicated that their current childcare status had a negative 
impact on their academic goals.
    As more service members enter into the student arena, we see the 
issue of childcare increasing with no Federal initiative to help these 
families. That is why we are pleased that H.R. 3419 - Support for 
Student Veterans with Families Act was proposed. The discussion on how 
to help veterans attending higher education, although not new, has been 
overlooked for some time. We applauded the committee for taking action 
on this particular issue.
    Student Veterans of America supports the general concept of H.R. 
3419, and we value the diligence that has gone into this Bill, however, 
we do have some concern over the effects of specific language in the 
Bill. Precisely the Use of Funds, Limitations, and Authorization of 
Appropriations sections. Under the section ``Use of Funds'' we would 
recommend removing section (A) ``establish or expand a child care 
center on the campus of educational institutions'' which would then 
negate the need for section (2) where ``at least 75 percent of the new 
child care services funded by the grant to students [.] are veterans''.
    We feel this particular language is would be difficult for an 
institution of higher education to achieve without excessive 
programmatic issues associated with the implementation of the program. 
We do, however, support the language in section (B) in ``Use of Funds'' 
where the VA would ``pay the cost of providing child care services to 
students enrolled in courses of education offered by the educational 
institution at a child care center located on the campus of the 
educational institutions'', but would recommend including language such 
as, ``if the educational institution did not have child care then a 
payment would be made to the veteran to supplement the cost of child 
care off campus''.
    Finally, SVA would caution against the language used in section (e) 
``Authorization of Appropriations''. Student Veterans of America would 
like to see a specific amount of funds as opposed to an arbitrary 
amount.

Bill 2551: Veterans' Entry to Apprenticeship Act

    Student Veterans of America supports the Veterans' Entry to 
Apprenticeship Act. Skills such as blue print reading, tool use, and 
map reading are important trade skills generally not taught during an 
apprenticeship. These are skill needed before one starts an accredited 
apprenticeship and allowing the GI Bill to be used to gain this 
valuable information can help veteran enter into high need skill based 
programs.
    Although there are many schools that offer pre-apprenticeship 
programs and certification options, not all schools are accredited. In 
many instances, accreditation of the degree or program you complete may 
be required in order to become certified to work in the field. Because 
of this, we highly suggest the langue in this Bill applies to only 
programs that are accredited. The language in section 3687A; (3), (4), 
and (5) seem to suppress any concerns of abuses.

Bill 3286: HIRE Vets Act

    Although Student Veterans of America primarily deals with 
educational issues, it is important where our students end up after 
completion of their degree. The HIRE Vets Act is a great way for 
transitioning service members and student veterans to seek out 
organizations that have a history of hiring and retaining veteran 
employees.
    Student Veterans of America has always remained steadfast that an 
informed consumer can make the best decisions for himself or herself. 
The HIRE Vets Act will help veterans make these informed decisions. 
Because of this, we support the HIRE Vets Act and look forward to 
promoting these prestigious organizations with exemplary veteran 
employment practices.

Bill 4138: To authorize the Secretary of Veterans Affairs to recoup 
    relocation expenses paid to or on behalf of employees of the 
    Department of Veterans Affairs.

    Student Veterans of America supports any Bill that allows the 
Secretary of Veterans Affairs to cut down on waste and abuse. Any abuse 
of funds in the VA not only hurts the VA as a whole but additionally 
all programs administered by the VA. The latest scandal where $275,000 
of VA funds were used for questionable moving expenses could have 
helped veterans get a degree or fund other much-needed VA programs.
    We applaud Chairman Miller for his dedication to stop waste in 
abuse in the VA. We hope that this Bill moves forward and we at Student 
Veterans of America support this legislation.

Draft Bill: Sec. 4 Training for School Certifying Officials.

    This Bill, requiring the Secretary of Veteran Affairs to train 
school certifying officials, is a much-needed change in how institution 
decide who should be a School Certifying Official. Although there is 
currently an educational program to train VA Certifying Officials, this 
training is not mandatory. The online training schedule can be found 
at: http://www.benefits.va.gov/gibill/school--training--resources.asp
    It is estimated to take anywhere from a week to 3 weeks to 
complete. We feel that schools who do not have trained certifying 
officials should not be eligible to offer courses or educational 
assistance to veterans given that the training is minimal. We would 
recommend, however, to allow 90 days for the School Certifying Official 
to complete the online training. This would insure that if a trained 
certifying official left the institution, the university would have 
appropriate time to find a replacement and train them as a certifying 
official.
    Student Veterans of America supports this Bill. It would add 
oversight to institutions and require their certifying official to 
learn about the GI Bill, which could lead to more informed student 
veterans.

Draft Bill: Sec. 6 Reduction of Amount of Housing Stipend Payments for 
    Reduction of Course Hours.

    Student Veterans of America understand that sometimes it is 
necessary for an individual to change their full time student status to 
part time. We also agree that when an individual changes their status, 
their BAH should be reduced and over payments should be reimbursed. We 
have reservations with removing future BAH payments to recoup 
overpayments in the past.
    If a student were to disenroll from a class and become part-time 
because of family issues in the last month of a semester, not only 
would their BAH be reduced but all overpayments for the past few month 
would be removed from that current months BAH. We feel that this might 
lead to having a veteran, who already having personal issues, finding 
themselves in a financial struggle.
    We support section (2) (line 2 to 7 on page 5) in its entirety, 
however, we would recommend striking line 8 - 17 respectfully. By 
deduction overpayments of future BAH payments, you can put veterans in 
an undue financial burden. Student Veterans of America agrees will all 
supplementary sections represented in this draft Bill.

Draft Bill: Research Program to Evaluate Effectiveness of Transition 
    Assistance Program in Addressing Needs of Certain Minority 
    Veterans.

    Student Veterans of America prides itself on the amount of data 
collection and analysis we preform each year. From the Million Records 
Project to the NVEST project, we increasingly learn more about student 
veterans. We see the value in data and how it can help decision makers 
chose the right response for a particular problem.
    Requiring the Secretary of Labor, Secretary of Veterans Affairs, 
and Secretary of the Department of Defense, to evaluate the Transition 
Assistance Program will help capture much needed data. Being that the 
target audience is women veterans, veterans with disabilities, Native 
American Veterans, and other groups of minority veterans' status we 
feel that any information on these minority groups can help determine 
policy decisions in the future.
    Any data on veterans is valuable in understanding the issues 
veterans face. We support this Bill and look would be pleased to add to 
this subject.

Draft Bill: Veterans Success on Campus Act of 2016.

    Informed consumers is a subject that Student Veterans of America 
feels strongly about. We maintain that the sooner a transitioning 
service member is able to understand their GI Bill Benefits, which 
school is most appropriate for them, and how to achieve their overall 
goal, the more likely that individual will transition into the work 
force as an employable, highly trained, military veteran.
    Authorizing on-campus educational and vocational counseling is 
progress and we hope to see this Bill move forward. We would also like 
to see this same education and vocation counseling before a veteran 
enters into the education realm. We feel the best time to instruct a 
transitioning service member about their future in education and the 
work force is before they transition out of the military. We would 
strongly recommend applying this same language to the Transition 
Assistants Program.

Final Thoughts

    SVA's motto is ``Yesterday's Warriors, Today's Scholars, Tomorrow's 
Leaders''. It is our goal to help Veterans transition from Military 
Warriors into Civilian Leaders. The GI Bill is paramount in this 
transition and currently helps over one million veterans to attend 
higher education. We thank the Chairman, Ranking Member, and the 
Subcommittee Members for your time, attention, and devotion to the 
cause of veterans in higher education. As always, we welcome your 
feedback and questions, and we look forward to continuing to work with 
this subcommittee, the House Committee on Veterans' Affairs, and the 
entire Congress to ensure the success of all generations of veterans 
through education.

 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, SVA has 
not received any federal grants in Fiscal Year 2015, nor has it 
received any federal grants in the two previous Fiscal Years.
                                Appendix

SVA 2015 Census Survey - Student Veterans and Childcare


                   TABLE: 2015 Census Survey Student Veteran Breakdown by Relationship Status
----------------------------------------------------------------------------------------------------------------
     What is your current relationship status?                Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
Single, Never married.............................                           406                         30.19%
Married...........................................                           607                         45.13%
Engaged, In a committed relationship..............                           127                          9.44%
Separated.........................................                            20                          1.49%
Divorced..........................................                           163                         12.12%
Widowed...........................................                             5                          0.37%
Decline to state..................................                            17                          1.26%
Total.............................................                         1,345                        100.00%
----------------------------------------------------------------------------------------------------------------


                     TABLE: 2015 Census Survey Student Veteran Breakdown by Parental Status
----------------------------------------------------------------------------------------------------------------
    Do you have any children (natural children,
        adopted children, or stepchildren)?                   Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
Yes...............................................                           621                         46.14%
No................................................                           711                         52.82%
Decline to State..................................                            14                          1.04%
Total.............................................                         1,346                        100.00%
----------------------------------------------------------------------------------------------------------------


                   TABLE: 2015 Census Survey Student Veteran Breakdown by Single Parent Status
----------------------------------------------------------------------------------------------------------------
     Do you consider yourself a single parent?                Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
Yes...............................................                            91                         14.70%
No................................................                           523                         84.49%
Decline to state..................................                             5                          0.81%
Total.............................................                           619                        100.00%
----------------------------------------------------------------------------------------------------------------


        TABLE: 2015 Census Survey Student Veteran Breakdown by Childcare Status Impact on Academic Goals
----------------------------------------------------------------------------------------------------------------
  What type of impact does your current childcare
   status have on your progress towards academic              Frequency                      Percentage
                       goal?
----------------------------------------------------------------------------------------------------------------
Extremely negative................................                             7                          2.17%
Negative..........................................                            56                         17.39%
Neither positive or negative......................                           119                         36.96%
Positive..........................................                            86                         26.71%
Extremely positive................................                            54                         16.77%
Total.............................................                           322                        100.00%
----------------------------------------------------------------------------------------------------------------


             TABLE: 2015 Census Survey Student Veteran Breakdown by Childcare Status on Overall Life
----------------------------------------------------------------------------------------------------------------
  What type of impact does your current childcare
         status have on your overall life?                    Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
Extremely negative................................                             5                          1.56%
Negative..........................................                            26                          8.13%
Neither positive or negative......................                           128                         40.00%
Positive..........................................                            93                         29.06%
Extremely positive................................                            68                         21.25%
Total.............................................                           320                        100.00%
----------------------------------------------------------------------------------------------------------------


            TABLE: 2015 Census Survey Student Veteran Breakdown by Childcare Status Impact on Budget
----------------------------------------------------------------------------------------------------------------
  What type of impact does your current childcare
            status have on your budget                        Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
Extremely negative................................                            56                         17.39%
Negative..........................................                           106                         32.92%
Neither positive or negative......................                            93                         28.88%
Positive..........................................                            36                         11.18%
Extremely positive................................                            31                          9.63%
Total.............................................                           322                        100.00%
----------------------------------------------------------------------------------------------------------------


            TABLE: 2015 Census Survey Student Veteran Breakdown by Stress Due to Scheduling Childcare
----------------------------------------------------------------------------------------------------------------
 How much stress does scheduling childcare add to
                    your life?                                Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
None..............................................                            89                         27.55%
Minor.............................................                            93                         28.79%
Moderate..........................................                            77                         23.84%
Serious...........................................                            38                         11.76%
Not Applicable....................................                            26                          8.05%
Total.............................................                           323                        100.00%
----------------------------------------------------------------------------------------------------------------


            TABLE: 2015 Census Survey Student Veteran Breakdown by Stress due to Paying for Childcare
----------------------------------------------------------------------------------------------------------------
 How much stress does paying for childcare add to
                    your life?                                Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
None..............................................                            87                         27.02%
Minor.............................................                            43                         13.35%
Moderate..........................................                            76                         23.60%
Serious...........................................                            86                         26.71%
Not Applicable....................................                            30                          9.32%
Total.............................................                           322                        100.00%
----------------------------------------------------------------------------------------------------------------


       TABLE: 2015 Census Survey Student Veteran Breakdowns by Stress due to Travel to and from Childcare
----------------------------------------------------------------------------------------------------------------
 How much stress does travel to and from childcare
                 add to your life?                            Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
None..............................................                           109                         33.96%
Minor.............................................                            81                         25.23%
Moderate..........................................                            78                         24.30%
Serious...........................................                            25                          7.79%
Not Applicable....................................                            28                          8.72%
Total.............................................                           321                        100.00%
----------------------------------------------------------------------------------------------------------------


                TABLE: 2015 Census Survey Student Veteran Breakdown by Current Enrollment Status
----------------------------------------------------------------------------------------------------------------
      What is your current enrollment status?                 Frequency                      Percentage
----------------------------------------------------------------------------------------------------------------
Full-time Student.................................                         1,138                         84.17%
Part-Time Student.................................                           211                         15.61%
Not currently enrolled/LOA........................                             0                          0.00%
Graduated/Alum....................................                             0                          0.00%
Enrolled, Full-Time/Part-Time Unknown.............                             3                          0.22%
Total.............................................                         1,352                        100.00%
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>
                  Prepared Statement of Aleks Morosky
    Chairman Wenstrup, Ranking Member Takano and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I want to thank 
you for the opportunity to present the VFW's views on today's pending 
legislation.

H.R. 748, GI Bill STEM Extension Act of 2015

    The VFW supports this legislation, which would grant an additional 
nine months, or one academic year, of Post-9/11 GI Bill benefits to 
student veterans pursuing degrees in specified fields of science, 
technology, engineering, and mathematics (STEM) that require more than 
the standard 128 credit hours for completion. Veterans would also be 
eligible for the additional benefits if they have already earned a 
degree in a STEM field and are pursuing a teaching certificate.
    Those who graduate with STEM degrees position themselves for 
employment in increasingly high demand, good paying jobs. Simply put, 
the VFW believes that offering an additional nine months of education 
assistance is a good investment in veterans' futures and, therefore, 
our national economy. Veterans who choose to enter these programs 
should be given the opportunity to complete them without exhausting 
their benefits before earning their degrees.

H.R. 2551, Veterans' Entry to Apprenticeship Act

    The VFW supports this legislation, which would require VA to treat 
certain pre-apprenticeship programs as apprenticeship programs for the 
purposes of providing educational assistance. Only those pre-
apprenticeship programs that are compliant with state standards or 
approved by a sponsor in states that have no such standards would be 
covered.
    The VFW strongly supports allowing veterans to use their GI Bill 
benefits for apprenticeship programs, preparing them for good paying 
jobs in the high demand skilled labor field. Still, some veterans who 
wish to enter a trade lack the basic qualifications needed for entry 
into a registered apprenticeship program. By allowing them to use their 
education benefits to enroll in pre-apprenticeship programs, this bill 
would help them build the necessary skills and competencies they need 
to enter and succeed in the apprenticeship programs of their choice.

H.R. 3286, Honoring Investments in Recruiting and Employing American 
    Military Veterans Act of 2015 or ``HIRE Vets Act''

    In much the same way the Employer Support of the Guard and Reserve 
(ESGR) program gives awards to employers in recognition of the support 
they provide their employees who serve in the National Guard and 
Reserve and their families, the HIRE Vets Act provides a private sector 
employer recognition through the HIRE Vets Medallion program. The 
program has four levels of awards, bronze through platinum, with each 
level requiring the employer to hire and retain more veterans and 
provide more services to their veteran employees.
    The VFW supports H.R. 3286, but would like to offer two suggestions 
to improve the bill. In Section 3(b)(1)(B)(ii) the bill states ``such 
employer provides support to each of its employees who are performing 
active duty service in the United States National Guard or Reserve, 
including by providing to each such employee a guarantee of employment 
following such employee's active duty service.'' Under the Uniformed 
Services Employment and Reemployment Rights Act (USERRA) employers are 
required by law to preserve employment for service members serving on 
active duty. The VFW suggests that this provision be replaced with an 
employer-sponsored USERRA training program. This will ensure that both 
the supervisors and veteran employees understand their rights and 
responsibilities under USERRA.
    The VFW also suggests that Section 3(b)(1)(C)(iv) of the bill be 
rephrased to emphasize the training program would provide specific 
training that is geared to bridge any gaps between a veterans military 
training and experience and the requirement to fulfill the duties of 
the job they have been hired to perform. The VFW wants to thank 
Congressman Cook for his vision and we look forward to working with him 
to improve this legislation.

H.R. 3419, Support for Student Veterans with Families Act

    The VFW supports the intent of this legislation, which would 
authorize VA to make up to 50 grants to educational institutions for 
the purpose of providing child care services to student veterans. The 
funding could be used to establish or expand campus child care centers, 
or to pay the cost of child care services. We believe that this is 
warranted, as a lack of quality child care could significantly impact a 
veteran's ability to successfully complete their education goals.
    The bill requires that at least 75 percent of new child care 
services funded by the grant must go to student veterans. While we do 
not see significant harm in allowing excess services to be used by non-
veteran students and faculty, we would object to any student veteran 
being denied services or placed on a waiting list behind a non-veteran 
under any circumstances. To prevent this from happening, we suggest 
that the bill be amended to include a priority of services clause for 
student veterans. With that change, the VFW would fully support the 
legislation.

H.R. 4138, A bill to authorize the Secretary of Veterans Affairs to 
    recoup relocation expenses paid to or on behalf of employees of the 
    Department of Veterans Affairs.

    When government employees are asked to relocate in the interest of 
the government, the department or agency requiring the relocation has 
the authority to pay for the employee's travel and relocation expenses. 
However, if an employee abuses the relocation expense program, it is 
unclear if the Secretary has the authority to recoup any of the 
relocation payment. H.R. 4138 provides the Secretary the clear 
authority to require an employee to repay all or some portion of the 
amount provided through the relocation expense program. The bill also 
affords employees an opportunity for a hearing by another department or 
agency before any repayment can be enforced.
    The VFW supports H.R. 4138, believing that when an employee games 
the relocation expense program for personal gain or unintentionally 
receives payments that are not authorized, the Secretary must have the 
authority to recoup those funds.

Draft Legislation, Veterans Success on Campus Act of 2016

    The VFW supports this legislation, which would establish the 
Veterans Success on Campus (VSOC) program as a permanent program in 
title 38. Beginning as a VA pilot project at the University of South 
Florida in 2009, the VSOC program has now grown to 94 campuses 
nationwide. By assigning Vocational Rehabilitation and Employment 
counselors to these campuses, student veterans are provided with 
convenient access to education and career counseling, as well as 
information on VA health care and other benefits. The VFW strongly 
supports VSOC, believing it greatly enhances student veterans' 
opportunities for a successful transition to civilian life. 
Accordingly, we codify it as a permanent VA program.

Draft Legislation, GI Bill Oversight Act of 2016

    This bill takes comprehensive steps to eliminate deceptive and 
misleading practices conducted by institutions of higher learning.
    Section 2 requires the Office of the Inspector General (IG) to 
conduct investigations on institutions of higher learning that are 
under investigation by a state or federal agency, are the defendant in 
a class action suit, or have been found guilty of deceptive or 
misleading practices.
    This Section also calls on the IG to inform beneficiaries who are 
enrolled in an institution of higher education that the school is under 
investigation and the reason for the investigation. Along with this 
notification the IG will provide information that will assist students 
in transferring credits to another institution of higher learning, and 
as part of the GI Bill Comparison Tool, the Secretary will make this 
information available to veterans who are researching their educational 
options.
    Section 3 provides VA with the authority to disapprove these 
courses of education from receiving GI Bill funding and restore lost 
benefits for beneficiaries who are enrolled and receiving benefits when 
disapproval occurs.
    The VFW supports this legislation. Veterans can only make quality 
decisions regarding their education options if the information they use 
to make those decisions is complete. This bill ensures that veterans 
will have improved information as they search for a school and a 
program that best meets their educational goals and needs, and if a 
veteran is deceived into attending a program that is disapproved during 
an academic period, the veteran should be made whole by reimbursing 
that semester of education benefits back to the veteran. The VFW looks 
forward to working with the Committee to pass this important piece of 
legislation.

Draft Legislation, To make certain improvements in the laws 
    administered by the Secretary of Veterans Affairs relating to 
    educational assistance, and for other purposes.

    This legislation makes several administrative changes to the Post-
9/11 GI Bill, most of which the VFW supports.
    Section 2 allows veterans to use their Post-9/11 GI Bill 
entitlement for licensure and credentialing tests, based on the 
prorated cost of the amount of the fee charged for the test. Often, 
veterans need to take licensure and certification tests in order to 
become credentialed in their chosen professions in their home states. 
Currently, veterans may use the Post-9/11 GI Bill to pay for these 
tests; however, they are charged a full month of benefits for each 
test. This is not the case under the Montgomery GI Bill, which 
subtracts only the exam fee from the overall entitlement to education 
assistance. This is a more favorable system for the veteran, since 
license and exam fees typically cost far less than a month of full time 
tuition and fees at an institution of higher learning. The VFW supports 
this section, which would allow veterans seeking licenses and 
credentials to retain the maximum amount of educational assistance with 
which to achieve other academic and professional goals.
    Section 3 extends the rounding down of the percentage increase in 
educational assistance VA may pay to certain institutions of higher 
learning for ten years. The VFW opposes round downs, as they require 
veterans to pay for their earned benefits.
    Section 4 extends the authorization of the Veterans' Advisory 
Committee on Education through 2021. The Advisory Committee is 
currently set to expire at the end of 2016. The VFW supports the 
extension, believing that the committee is critical to identifying the 
challenges facing student veterans and presenting responsible solutions 
to the Secretary directly from industry stakeholders.
    Section 5 would mandate VA provide requirements for the training of 
school certifying officials at schools approved for education 
assistance. It would also authorize VA to disapprove those schools 
whose certifying officials do not meet the requirements. An October 
2015 report by the Government Accountability Office (GAO) found that 
nearly one in four student veterans and 6,000 schools received 
overpayments in 2014. These overpayments result in debts that must be 
repaid. One of GAO's recommendations for reducing overpayments was 
better training for school certifying officials. The VFW supports that 
recommendation and this section of the bill.
    The VFW supports section 6, which codifies VA's ability to adjust a 
veteran's housing allowance payments on a prorated basis, in the case 
where a veteran reduces his or her number of credits to below the full 
time enrollment rate.
    Section 7 clarifies that reporting fees paid to educational 
institutions by VA must be used solely for making certifications 
required by law or otherwise supporting veterans programs, and may not 
be used for or merged with the school's general fund. The VFW supports 
this section.

Draft Legislation, To direct the Secretary of Labor to carry out a 
    research program to evaluate the effectiveness of the Transition 
    Assistance Program in addressing the needs of certain minority 
    veterans.

    The VFW supports this legislation, which would require research 
into how the Transition Assistance Program (TAP) addresses the unique 
needs, challenges, and post-military service aspirations of women 
veterans, veterans with disabilities, Native American veterans, and 
other groups as the Secretary considers appropriate. It would also 
require recommendations on any changes that could be made to TAP to 
address any differences that are identified. We believe this data could 
be useful in the Department of Defense's continuing efforts to ensure 
that the TAP curriculum is as effective as possible for all 
transitioning veterans.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions you or the Committee members may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, the VFW 
has not received any federal grants in Fiscal Year 2016, nor has it 
received any federal grants in the two previous Fiscal Years.
    The VFW has not received payments or contracts from any foreign 
governments in the current year or preceding two calendar years.

                                 --------
                       Statements For The Record

    Office of Inspector General, U.S. Department of Veterans Affairs
    (1 footnote)
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to provide information on the Office of Inspector General's 
(OIG) views regarding the draft bill titled GI Bill Oversight Act of 
2016. The OIG has issued several audits and reviews in the past on 
issues associated with the Post 9/11 GI Bill. \1\ Currently, we are 
finalizing a national audit on tuition and fee payments under the 
program.
---------------------------------------------------------------------------
    \1\ Audit of Post 9/11 GI Bill Housing Allowances and Book 
Stipends, July 11, 2014; Audit of Initial Post 9/11 GI Bill Education 
Payments, November 2, 2010; Audit of VA's Implementation of the Post 9/
11 GI Bill Long Term Solution, September 30, 2010; Review of Alleged 
Inadequate Controls on Education Emergency Payments, September 14, 
2010.
---------------------------------------------------------------------------
    We are concerned about several provisions in the draft bill and 
appreciate the efforts of the Minority Subcommittee staff to address 
them. We believe some provisions of the draft bill would pose a serious 
threat to how the OIG conducts its work, including the impact the 
requirements might have on an investigation. The OIG's responsibility 
is to conduct an investigation to gather facts, not determine guilt. We 
work with authorities such as U.S. Attorneys and state attorneys who 
have responsibility for making a prosecutorial decision and prosecuting 
a case. It is a judge or jury who makes a decision on guilt or 
innocence.
    Section 2 of the draft creates a new subchapter of chapter 36 of 
Title 38 of the United States Code which identifies three situations 
that would require the OIG to conduct an investigation. We understand 
from Minority Subcommittee staff that section (a)(1) regarding class 
action lawsuits will be deleted. We support that deletion.
    In the current draft, the second provision would require the OIG to 
investigate if the institution of higher learning is under 
investigation by any Federal or state agency for deceptive or 
misleading practices. If the investigation is Federal and relates to VA 
benefits, the OIG would already likely be involved. However, when this 
is not the case, conducting parallel investigations is duplicative and 
may create confusion among possible witnesses. Not only is there a risk 
of the inquiries interfering with each other, there is also a risk that 
they may produce inconsistent findings. We could support a provision 
that required coordination of efforts to produce a single report and, 
if feasible, a single prosecution in situations where the issues under 
investigation impact more than one Federal agency or a Federal agency 
and a state entity.
    The third provision would require the OIG to investigate when the 
institution has been found guilty of deceptive or misleading practices. 
If an institution of higher learning has already been found guilty of 
deceptive or misleading practices, and VA is impacted, conducting a 
second investigation may be duplicative. We would support a provision 
requiring that VA take action when an institution of higher learning 
has been found guilty of deceptive or misleading practices to determine 
whether the conduct impacted VA's program and, if so, take corrective 
action.
    The new subchapter also includes a section regarding notice to 
students. We understand that staff is considering changing the 
notification requirement from the OIG to VA. We have concerns regarding 
any required notifications by any official during an ongoing 
investigation. Should the institution under investigation become aware 
of the notice to students, such forewarning could prompt the 
destruction of evidence, and it would give officials the opportunity to 
compare statements and coordinate witness testimony. Moreover, 
requiring any entity to identify and provide notice to every student of 
an institution under investigation would create an enormous burden on 
finances and staff workload.
    Further with respect to the bill's counseling provision, requiring 
the OIG to counsel students to take actions prejudicial to the 
organization under investigation, prior to any findings being made, 
runs contrary to the OIG's mandate to remain objective and neutral 
during the course of an investigation. The OIG is an investigative body 
and is not in a position to offer educational advice.
    Lastly, if the investigation does not result in a finding of 
wrongdoing and the institution loses business because of these 
activities, VA could be subject to litigation if either the OIG or VA 
suggests individuals transfer to another institution without actual 
cause. prematurely.
    Section 3 of the current draft again references a finding of guilt 
by the Inspector General. If this section remains, it should be amended 
to indicate that it is a court of law that determines whether an 
institution of higher learning is guilty of deceptive or misleading 
practices.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
